<html>
<title> - INDIAN EDUCATION SERIES: INDIAN STUDENTS IN PUBLIC SCHOOLS: CULTIVATING THE NEXT GENERATION</title>
<body><pre>[Senate Hearing 113-383]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-383

 
                  INDIAN EDUCATION SERIES: INDIAN STUDENTS 
                   IN PUBLIC SCHOOLS: CULTIVATING THE NEXT 
                   GENERATION

=======================================================================


                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 9, 2014

                               __________

         Printed for the use of the Committee on Indian Affairs





                  U.S. GOVERNMENT PRINTING OFFICE
89-678                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON INDIAN AFFAIRS

                     JON TESTER, Montana, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
MARIA CANTWELL, Washington           LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
              Rhonda Harjo, Minority Deputy Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 9, 2014....................................     1
Statement of Senator Barrasso....................................     7
Statement of Senator Franken.....................................    46
Statement of Senator Heitkamp....................................    43
Statement of Senator Tester......................................     1

                               Witnesses

Broaddus, Mandy Smoker, Director of Indian Education, Montana 
  Office of Public Instruction...................................     2
    Prepared statement...........................................     5
Gish, Brent D., Executive Director, National Indian Impacted 
  Schools Association............................................    36
    Prepared statement...........................................    37
Hudson, Daniel, Chairman, Wyoming State Impact Aid...............     8
    Prepared statement...........................................     9
Mendoza, William, Executive Director, White House Initiative on 
  American Indian and Alaska Native Education, U.S. Department of 
  Education......................................................    49
    Prepared statement...........................................    51
Siqueiros, Alberto, Ed.D., Superintendent, Baboquivari Unified 
  School District, Tohono O'odham Nation.........................    22
    Prepared statement...........................................    24

                                Appendix

National Indian Education Association, prepared statement........    57
Response to written questions submitted by Hon. Tom Udall to:
    Mandy Smoker Broaddus........................................    61
    Brent D. Gish................................................    60
    Daniel Hudson................................................    61
Response to written questions submitted to William Mendoza by:
    Hon. Heidi Heitkamp..........................................    62
    Hon. Lisa Murkowski..........................................    71
    Hon. Tom Udall...............................................    68


                    INDIAN EDUCATION SERIES: INDIAN 
                      STUDENTS IN PUBLIC SCHOOLS: 
                    CULTIVATING THE NEXT GENERATION

                              ----------                              


                        WEDNESDAY, APRIL 9, 2014


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. Jon Tester, 
Chairman of the Committee, presiding.

             OPENING STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    The Chairman. I will call the Committee to order.
    Today, the Committee is holding an oversight hearing on the 
public education of Indian and Alaska Native students.
    In February, the Committee held a hearing on early 
childhood development and education. We heard a lot about the 
investments in our youth and the positive outcomes that can 
occur when these investments take place early in a child's 
life. This does not, however, free us from continuing these 
investments throughout a student's educational life.
    It is estimated that between 90 and 95 percent of all 
Indian students in the United States are in the public school 
system. That is approximately 400,000 Indian students. In my 
home State of Montana, approximately 16,500 Indian students 
attend public schools.
    Yet, when we talk about Indian education, it often seems 
that we tend to overlook the programs affecting Indian and 
Alaska Native students in our public schools. I am pleased we 
are focusing on this important issue today.
    Many leaders and advocates for Indian education know that a 
quality education system can help lift communities out of 
poverty and many of the symptoms associated with poverty. I was 
a teacher, my mom was a teacher and one of my kids is currently 
a teacher. Education has been a big part of my life and I know 
firsthand the impacts a quality education can have on our youth 
throughout their lives.
    I believe that improving those opportunities can be a 
starting point for addressing many of the issues that are so 
prevalent throughout much of Indian Country.
    As this Committee continues its series of oversight 
hearings on Indian education, I look forward to hearing the 
progress that some communities are making in improving Indian 
education for all. I want to thank our witnesses for joining us 
today and testifying on a topic that they are clearly very 
passionate about.
    I want to extend a special welcome to Ms. Mandy Smoker 
Broaddus, who is the Director of Indian Education for the 
Office of Public Instruction in my home State of Montana and a 
member of the Ft. Peck Sioux and Assiniboine Tribes.
    Senator Barrasso obviously is not here yet. When he 
arrives, he will have an opportunity to give an opening 
statement.
    For now, I think we will go to the first panel of 
witnesses. I want to welcome them all. First, we are going to 
be hearing from Ms. Mandy Smoker Broaddus, Director of Indian 
Education, Montana Office of Public Instruction. We will then 
turn to Daniel Hudson who is Chairman of Wyoming State Impact 
Aid. He will be followed by Dr. Alberto Siqueiros, 
Superintendent of the Baboquivari Unified School District No. 
40 of Sells, Arizona, who has some interesting testimony. 
Finally, we will hear from Brent Gish, Executive Director, 
National Indian Impacted Schools Association.
    I thank you all for being here today. For those who made a 
long trip, thank you. For those who made a short trip, thank 
you. We appreciate your testimony. I am going to ask you to try 
to keep your testimony to five minutes. Your entire statement 
will be made a part of the record.
    We will start with you, Mandy.

    STATEMENT OF MANDY SMOKER BROADDUS, DIRECTOR OF INDIAN 
              EDUCATION, MONTANA OFFICE OF PUBLIC 
                          INSTRUCTION

    Ms. Broaddus. Thank you, Chairman Tester. Good afternoon 
and thank you for inviting the Montana Office of Public 
Instruction to this important hearing today.
    It is my privilege to work for Superintendent Denise Juneau 
and for an agency in a State that ``recognizes the distinct and 
unique cultural heritage of American Indians and is committed 
in its educational goals to the preservation of our cultural 
integrity,'' language taken directly from Montana's 
constitution.
    It is an honor to speak before you all today. I am humbled 
by the spirit of my mother and all those who have gone before 
me because a great deal of collective suffering, yet also 
undeniable resiliency among my family and throughout Indian 
Country has allowed me to be here today.
    I have traveled from Montana with the next generation of my 
family in my heart, nieces, nephews, cousins and my own son who 
attend public schools back home. I would travel any distance if 
it might mean strengthening schools and communities so that 
they might have a better life.
    For so many of us across Indian Country and on this panel 
today, this work is deeply personal because we realize that it 
is our job to remove all the barriers our children face, both 
inside and outside of the school building.
    No stone should go unturned in our efforts to improve the 
educational systems so that our kids are prepared for whatever 
they choose next in life. This is the moral obligation for 
anyone who chooses to work in education and for American Indian 
students, it is even more necessary because times are urgent 
for our young people.
    In the face of suicide clusters, increasing domestic 
violence and growing instances of self-harm and drug addition, 
students show up at school every day and it is our job to do 
the best we can for them.
    The first thing I want to say to you today is that the work 
of improving educational outcomes for American Indian students 
cannot be the work of schools alone. The achievement gap in 
Montana and across this country is very real and the solutions 
are multi-dimensional and complex.
    We need better approaches to realize stronger, healthier, 
more stable and better-educated families and communities. This 
means that HUD housing, USDA, Head Start and the Department of 
Justice must be at the table with the Indian Health Service, 
tribal governments and tribal colleges.
    Funding and policy must be reconsidered within a framework 
of support with the end goal of creating an environment where 
young people are valued and safe.
    I will now talk about our efforts to create and coordinate 
innovative approaches in Montana. After many years of advocacy, 
the State provides funding, almost $500,000 each year, to the 
Office of Public Instruction to improve educational outcomes 
for American Indian students in our public school systems.
    We have funded dropout prevention efforts, early childhood 
efforts and elementary mathematics programs. We seek 
opportunities to support and educate the whole child because a 
collective effort is what is required. Over time, we have honed 
and refined a holistic approach to this work and we use public 
as well as private funding to establish as many leverage points 
as possible.
    In addition to State funding, the Office of Public 
Instruction has used Federal School Improvement Grant dollars 
to create a unique collaborative effort with our State's most 
struggling public schools, all of which exist in Indian 
Country. The Department of Education allowed us some 
flexibility with our SIG grant and we created the Montana 
Schools of Promise.
    As a result, the OPI has provided direct services to three 
school systems in our State. In addition, our agency stretched 
its capacity and provided five on-site coaches to assist school 
leaders, teachers, the school board, students and community 
members. These OPI staff members either moved to these 
communities or worked from there. They go to work in our 
schools every day and are able to push on these turbulent 
systems in ways that district staff is limited.
    Key results have been increases in literacy rates, 
increases in student engagement and improvement in overall 
school climate and infrastructure. We have also been able to 
dramatically increase the efficacy of local boards of trustees 
and are supporting new administrators who focus on the 
difficult work of improving their schools.
    Lastly and perhaps most significantly, we have implemented 
an innovative approach to better support the emotional and 
mental wellbeing of students through high fidelity wraparound. 
We received a two year Montana Mental Health Trust grant and a 
$1.8 million SAMSHA Systems of Care Grant and are partnering 
with tribal governments from our Schools of Promise sites--Fort 
Peck, Crow and Northern Cheyenne--and with Indian Health 
Services, the Bureau of Indian Affairs, and the State 
Department of Public Health and Human Services.
    With this support, we are implementing community driven, 
culturally responsive school-based mental health wrap around 
supports for students and their families through trained staff 
who are tribal members.
    These staff members have access to county and State support 
services and natural and cultural support to build on the 
assets of youth who all too often face traumatic experiences 
and live with PTSD symptoms.
    In closing, here are a few additional considerations. Title 
III administrators at the DOEd must consider the uniqueness of 
historically impacted native languages and their differences 
from other world languages. All Federal and State entities 
which impact the lives of children must expand their efforts 
beyond the traditional scope of services and more fully realize 
important connections with local school entities.
    I applaud President Obama's creation of the White House 
Council on Native American Affairs and hope that this work 
results in better coordination and innovation in Indian 
Country. A great need exists for comprehensive planning and 
funding to support the multi-faceted approach because we will 
not improve educational outcomes without addressing life 
outcomes overwhelmed by high unemployment rates and a lack of 
access to quality health care for American Indian families.
    Lastly, policy and regulations need to take into 
consideration the unique relationship American Indian tribes 
have with the Federal Government as sovereign nations. As such, 
their children and public schools are impacted by policies and 
regulations that fail to be culturally responsive and 
culturally sensitive.
    Again, thank you for allowing me this important opportunity 
today.
    [The prepared statement of Ms. Broaddus follows:]

    Prepared Statement of Mandy Smoker Broaddus, Director of Indian 
            Education, Montana Office of Public Instruction

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you for your testimony, Ms. Broaddus.
    Before we get to you, Mr. Hudson, I am going to turn to 
Vice Chairman Barrasso.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman, for 
holding this important hearing today.
    I am delighted to welcome Mr. Dan Hudson from Lander, 
Wyoming, to be with us on the panel and to be the next to 
testify. He serves as the Wyoming State Impact Aid Chairman. We 
have met many times over the past number of years. He has a 
great deal of knowledge of Wyoming's schools, especially those 
on the Wind River Indian Reservation.
    As I have stated at prior hearings, and as he and I have 
discussed in the past, education is a critical factor for 
success in today's world. Indian children have a remarkable 
capacity to learn and thrive. There are many challenges these 
children face in achieving their education. Recruitment and 
retention of qualified teachers and safe learning environments 
are just a few of those challenges.
    There are opportunities for improvement and success. I look 
forward to the entire hearing today, Mr. Chairman, and to 
hearing from our witnesses about the opportunities that exist. 
I welcome the witnesses and look forward to the testimony and 
especially welcome Mr. Dan Hudson.
    The Chairman. Thank you, Senator Barrasso.
    Mr. Hudson, you may proceed.

 STATEMENT OF DANIEL HUDSON, CHAIRMAN, WYOMING STATE IMPACT AID

    Mr. Hudson. Thank you, Chairman Tester, Vice Chairman 
Barrasso and ladies and gentlemen. I thank you for inviting all 
of us to be here today.
    I am Dan Hudson from Wyoming. As noted, I am Wyoming State 
Impact Aid Chairman. I am following the prepared written 
testimony. I would like to note that 93 percent of all Indian 
students are educated in public K-12 schools as opposed to the 
7 percent of Indian students educated in Bureau of Indian 
Education schools.
    Second, three times as many Indian students are educated in 
schools receiving impact aid funds when compared to the Bureau 
of Indian Education schools.
    I point this out as there has been occasionally a 
misperception that Indian education is largely the province of 
the Bureau of Indian Education Schools and this is not the case 
at all. As your program title notes, Indian students are 
largely in public schools.
    Since 93 percent of Indian students are educated in public 
K-12 schools, I think it important to note these schools are 
governed by locally elected school boards. As such, these 
school board members are very directly responsible to Indian 
parents and their local tribes. Impact aid recipient schools 
servicing Indian students have current specific legal 
safeguards in place that require parental and tribal input into 
the education programs provided by those schools.
    In written testimony provided, there are chosen examples of 
excellent and forward thinking programs provided by impact aid 
schools to serve Indian students. These schools include 
Browning, Montana; Ethete, Wyoming; Sacaton, Arizona; Wakpala, 
Wagner and Timber Lake in South Dakota; Toppenish, Washington; 
Red Lake, Minnesota and Lapwai, Idaho.
    These aren't the only schools providing such programs but 
are representative of the best Indian education programs 
provided to cultivate the next generation. These schools are 
from your States. They would seriously welcome your visits to 
see what can be done with these funds.
    I would also like to point out that exemplary results have 
been achieved despite relative reductions in available impact 
aid funding for these and the other impact aid schools over the 
past several years. For Indian students, the most important 
portion of their impact aid funding is called basic support or 
Section 8003.
    For Fiscal Year 2014 and so far, 2015, the basic support 
portion of impact aid is funded at $1,151,000,000. That is 58 
percent of the authorized figure of $1,984,000,000. As noted in 
my written testimony, other parts of impact aid are even more 
constrained such as payments for property, which receives only 
3.5 percent of its authorized funding figure.
    The last time that impact aid received appropriations to 
match its authorization was 1969. As such, impact aid which 
provides for so much of the education of the great majority of 
Indian students, especially so when the Native population is 
concentrated, has not been adequately funded for the last 45 
years.
    The third point I would like to discuss is the timeliness 
of payments from the U.S. Department of Education to impact aid 
schools serving impacted Indian students. Because impact aid is 
the only Federal education program that isn't forward funded, 
payments are issued only after the department receives either 
an appropriation or a continuing resolution in the current 
fiscal year.
    School programs should begin in September. For the 2014 
funding provided by the U.S. Department of Education and 
Congress, several of Wyoming's impact aid districts did not 
receive their payments until mid to late March of 2014 for the 
fiscal year that began October 1, 2013, seven months into the 
school year.
    It is thus apparent that having the funding arrive this 
late in any school severely compromises the district's ability 
to begin or continue programs that should have begun the prior 
September. Additionally, other major portions of fiscal 2013 
funding were not processed by the U.S. Department of Education 
and received by Wyoming's districts until March of 2014. 
Providing and improving Indian education with such unreliable 
timeliness of payments is, at a minimum, extremely problematic.
    To address these issues and provide the best cultivation 
for the next generation, first, the impact aid program should 
be forward funded. This does require a two-year appropriation 
within a single year and is difficult with our current Federal 
fiscal operation. The amount required would be about $2.774 
billion.
    Further, to provide the education that Indian students 
should receive in order to fully cultivate the next generation 
of public schools would thus require fully funding impact aid. 
This admittedly takes an even greater portion of funds, roughly 
$3.8 billion.
    To generate the amounts of funding necessary to achieve and 
sustain these figures should be included as a portion of the 
long overdue rewriting of the Federal tax code rather than 
trying to borrow the funding from elsewhere in the current 
Federal budget.
    Five minutes. Thank you, sir.
    [The prepared statement of Mr. Hudson follows:]

Prepared Statement of Daniel Hudson, Chairman, Wyoming State Impact Aid
    Good day. First I'd like to note that 93 percent of Indian Students 
are educated in K-12 public schools, with only the remaining 7 percent 
being educated in Bureau of Indian Education (BIE) schools. Indeed, 
just as regards Indian Students attending schools that receive Impact 
Aid, there is about a 3:1 preponderance toward regular K-12 schools 
(additional Indian students also attend K-12 public schools that do not 
receive Impact Aid funding, whereas the BIE figure is inclusive to 
those schools on their ``count day''). Please see Appendix A, pages 1 
and 2 for relevant figures. The point here is that in regards to 
providing Indian Education, the preponderance of that activity is 
performed by Impact Aid schools, not BIE schools.
    We can provide examples of some notable Impact Aid districts' 
educational programs, programs that serve to ``Cultivate the Next 
Generation'' as follows. These have all been presented at the Annual 
Conference of the National Indian Impacted Schools Association (NIISA) 
to the NIISA general membership.
    In Browning, Montana, a presentation of their alternative education 
program, ``Engaging Our Youth'' provided an increase in graduation 
rates from 54 percent to 71 percent. in the 2010 academic year. The 
Browning ``Project Choices'' provides an individualized education and 
social plan is generated, inclusive of physical needs, for each student 
within the program. This individualized plan is formulated by 
alternative education personnel. The ``Choices'' program in the school 
networks with other programs in the community, and has the overall 
intent of helping these students. As of the presentation, the program 
services 35 students. One should note that the graduation rate of 71 
percent, even though not exceptional, is nonetheless a 17 percent 
increase--and that is achieved among students whose physical needs of 
existing are not met outside of the program setting.
    In Ethete, Wyoming, Fremont County School District #14 achieved a 
tremendous success in reading scoring, going from 0 percent reading 
proficiency over quite a few years to 60 percent reading proficiency in 
grades K-6. This was due to instituting a research-based, culturally 
relevant professional development program developed by Mr. Craig 
Dougherty at the Wyoming Indian Center in Sheridan Wyoming--and 
initially developed for Native Hawaiian students. The focus of the 
Center is on improving teaching; by improving teaching the education of 
the students improves. The Center's focus is to improve learning by 
working on students' strengths. There are no excuses--teachers cannot 
change students' family situation or backgrounds--and thus the teachers 
are the educational resources for the kids. Excuses and whining are not 
permitted--the teacher is responsible for educating the students. The 
program does require that teachers receive additional training after 
graduation. Graduate study in math or language arts is required for the 
program, as universities provide a general education background, but 
specialists are what are needed. Teacher quality has six times the 
effect on student learning than all other factors combined, including 
ethnicity and socioeconomics. We have to provide a world-class 
education to America's First Children.
    In Sacaton, Arizona, Sacaton Unified School District (AZ), their 
instructional program is headed up by Superintendent Jim Christiansen 
with a team of Janet Chouteau, instructional coach, and Amanda 
Billings, master teacher. The Sacaton program uses teacher coaches to 
train staff, with the intent to unify and improve instruction. This 
method has resulted in substantial gains in reading capabilities; 
mathematics had good growth, although not quite as substantial. The 
Sacaton program has four essential elements used to turn schools 
around: (1) leadership, (2) professional growth, (3) curriculum 
improvement, and (4) assessment of results with resulting modifications 
to the plan. Reading and mathematics daily instructional time was 
increased from 50 to 80 minutes. Parental involvement in education 
remains an issue. The integration of cultural aspects and the Pima 
language into Sacaton's educational program is not yet completed. Class 
materials are also available for advanced and superior students, as 
they can access instructional software in advanced level classrooms.
    In South Dakota, quite a few districts are instituting exemplary 
programs delivered to students while doing so in the geographical area 
of the highest poverty in the United States. Wagner, SD schools 
implemented the JAG (Jobs for America's Graduates) program at that 
District to address student needs with severe life and academic needs. 
Typically, membership in the JAG increases graduation rates to over 90 
percent.
    The Timber Lake District, also from South Dakota, has implemented 
an ``Intensive Care Unit''. Superintendent Jarrod Larson notes that the 
program focuses on achievement, accountability, and parent involvement, 
along with positive professional development. To enter in the ICU, 
students have missing work, have below a 2.0 average but no D's or F's. 
The ICU program identifies these at-risk students and low-achieving 
students. One of the components of the program is to have a Trusted 
Adult available to address bullying issues. There are no 0 grades, but 
students cannot go back to the prior semester. As such, if a student is 
in the ICU for mathematics, that student must work on mathematics in 
the program--not other areas such as art, for example. While in ICU, 
there is no participation in assemblies, no sports participation, no 
dances--until the work is completed. There are also no random reward 
days in ICU. The results indicate reduced student apathy, increased 
performance, and increased parental communication. Timber Lake also has 
a signal science program developed by LuAnne Lindskov, South Dakota 
Teacher of the Year. The program utilizes a new philosophy of 
educational planning for success for the science students inclusive of 
individualized tutoring during and after school.
    In Wakpala, South Dakota, located on the Standing Rock Sioux 
reservation, they have implemented educational programs by trying to 
find out what works with Native students. It was noted that if the 
school is seen to be sincere about the task and also sincere in caring 
about the students, the students will perform well, it was also seen 
that healthy behavior had to be modeled by the staff, as the students 
do indeed watch. Wakpala has 100 percent Native Americans in its 
student body; They are also 47 percent Limited English Proficient, 30 
percent special education, 100 percent free and reduced lunch, and have 
47 percent mobility among its students and the surrounding districts. 
One challenge noted is that the area districts are trying to provide a 
standardized curriculum in relation to the mobility factor. However, 
results from the Wakpala program included a 5 percent improvement in 
attendance, a 19 percent increase in graduation rate, and an eight-fold 
decrease in high school discipline referrals.
    Washington State also has a series of programs that serve Native 
students to ``Cultivate the Next Generation''. Former Superintendent 
Steve Myers instituted a pre-school cooperative at Toppenish, 
Washington. Mr. Myers program is centered around the fact that very 
young children (ages 3-5) have much more brain activity than is 
measured in later years. Myers has noted that we as a society invest 
great amounts of funding and effort to educate in later years, but very 
little in preschool, despite the fact that preschool is where the 
maximum amount of learning as measured by brain activity is actually 
occurring. Myers program provided data that the emphasis on early 
education pays off at the upper end of the education spectrum. 86 
percent of his program children graduate, and between 83 and 96 percent 
of the children go on to a post-secondary education. The program uses 
multiple data assessments to ensure each child masters learning skills.
    Toppenish also currently has an exemplary high school program 
centered around science, technology, engineering and mathematics. The 
goal of the this program, provided by Superintendent John Cerna, is 
both college and career readiness. They generate a 93 percent 
graduation rate. All students take Introduction to Engineering Design 
as an introductory class. Second in the high school series is civil 
engineering and architecture, followed by aerospace engineering. 
Toppenish High School also provides instruction in robotics and digital 
electronics. The English department also promotes technical writing. 
Toppenish Middle and High School entered the World Technology 
Competition, placing 36th overall in the world. Demographically, the 
District is 90 percent free and reduced lunch, 83 percent Hispanic, and 
13 percent Native American. Additionally, all Toppenish freshmen take 
Principles of Biomedical Science, as the usual Earth Science and 
Physical Science classes weren't preparing students for the Washington 
State tests. As a consequence, enrollment in upper level mathematics 
and science classes increased markedly, and the more basic/introductory 
classes declined in enrollment.
    Lapwai, Idaho instituted a program developed by Mr. Harold Ott 
called Key Elements of High Performing Schools. The Lapwai District was 
the recipient of a three year grant from the Albertson Foundation, 
providing funding to address student performance. Ott noted that we 
work too much on teaching, and not enough on learning. Ott also noted 
that it is the moral responsibility of each teacher to educate each 
child entrusted to them. The issue is to be teaching each student as 
they are special, all of them, one at a time. As a result, every 
student discovers their own chance to succeed. Ott also contends that 
students don't fail--systems do. The task of leaders is thus to change 
systems so the students can all succeed. The Wapato, WA District, where 
Ott also worked, had a 14 percent graduation rate. A group of sixty 
separate people wrote a school improvement grant, as a moral commitment 
to change the Wapato school system. Four years later, the Wapato 
District had an 86 percent graduation rate. Ott included the premise 
that cultural diversity is a gift--we, as a nation, don't completely do 
the 'melting pot' consistently. Wapato's program, as replicated in 
Lapwai, had a multicultural fair, celebrating diversity, not 
uniformity. This honors the things important to the District's various 
students and their respective cultures. It also provided a sharp 
reduction in discipline referrals, fights and gang activity. Ott noted 
his motto--``No shame, no blame,--and no excuses.''
    These examples are all provided by Impact Aid recipient schools, 
and yes, they are selected with a viewpoint toward this Committee's 
membership. They are by no means the only such examples available from 
Impact Aid recipient schools primarily engaged in teaching Native 
American students. It should also be pointed out that these schools are 
all what is referred to as ``high LOT'' districts--meaning that they 
receive a high percentage of their Impact Aid payment. Among other 
things, the high LOT designation is indicative of high need and was 
required by Congress in the 1994 iteration of Impact Aid. The point 
being made here is that other schools receive lesser payment 
percentages and as a possible consequence, have not evinced similar 
programs.
    Additionally, it should also be noted that these programs and 
results from these schools have been achieved even while the Impact Aid 
program itself has not received commensurate appropriations to provide 
and continue such programs, and the delivery of Impact Aid funding by 
the U.S. Department of Education to these and other Impact Aid schools 
has been haphazard, especially over the last few years of operation.
    The Impact Aid Law has several sections. Basic Support, or Section 
8003 receives the major portion of appropriations and is the life blood 
of Native education. Currently this Section of Impact Aid is funded at 
58 percent of authorization, for fiscal 2014 a figure of 
$1,151,233,000. The full federal obligation of Basic Support would be 
$1,984,000,000. Basic Support, however, receives a far greater 
proportion of the federal obligation than does another portion of the 
program, that being Payments for Property, or section 8002, which 
receives only 3.5 percent of authorization. For fiscal 2014, that 
appropriation is $66,813,000; the true figure for Payments for Property 
is actually $1,885,000,000, substantially close to the Basic Support 
figure. As such, if appropriations were to actually meet the federal 
obligation as authorized, the overall figure for these two portions of 
Impact Aid would be about $3.8 billion. This compares to the 
appropriated figure for these two parts (which aren't the entirety) of 
Impact Aid of about $1.2 billion. The last year that appropriations 
balanced authorization for Impact Aid was 1969. Since that time, the 
Impact Aid program, which provides the educational needs and programs 
of the great majority of Native American students, has not been 
adequately funded. Please see Appendix B.
    Further exacerbating this issue, the U.S. Department of Education, 
first, cannot process payments to Impact Aid recipient districts 
without a current year authorization (or continuing resolution) amount. 
Impact Aid, as the second oldest federal education program, retains 
that current year funding character of such programs from years long 
gone. All other federal education programs are forward funded for one 
year. As such, the other federal education program payments can be 
processed in the current fiscal year without undue delays. Impact Aid, 
until such time as a current year appropriation (or continuing 
resolution) is completed, cannot be paid out, leaving the Impact Aid 
districts without Impact Aid funding for an unknown time. Worse, as I 
might note for Wyoming's school districts (I cannot knowledgably speak 
for other states), there appears to be no consistency as regards 
reception of payments from the U.S. Department of Impact Aid.
    As an example, two Wyoming Districts (Fremont County School 
Districts #14 and #21) received 40 percent of their 2014 Impact Aid 
program funds in December 2013; they received an additional 40 percent 
of their fiscal 2014funds in March 2014. Another Wyoming District 
(Fremont County School District #38) did not receive any fiscal 2014 
funding in December, and finally received its 2014 Impact Aid funds in 
mid-March of 2014. Yet another Wyoming District (Fremont County School 
District #6) is thought to have received its 2014 funds as of March 28, 
2014. It should be noted that for the 2014 program year, it was 
Wyoming's turn to provide documentation to the U.S. Department of 
Education to verify the Impact Aid application figures. Fremont County 
School District #6 had provided suitable documentation no later than 
April 17, 2013 as may be verified by email commentary in the supplied 
Appendix, yet did not receive payment until March 28th, 2014 
(probably). Please see Appendix C, pages 1 and 2.
    Another example of lack of performance is the processing of another 
area of Wyoming's payments. One of the three methods of calculating 
payments involves the use of what's called a ``generally comparable 
district.'' This is the oldest method of calculating payment, and the 
Impact Aid law, both current and for reauthorization purposes, requires 
selection of the best method for payment purposes. The file properties 
of this payment basis for Fiscal Year 2013, of which I've kept a copy 
on my computer, and which the Wyoming Department of Education must 
certify to the U.S. Department of Education shows last saving of the 
file in August 2012. This means that all work was completed on the file 
in Wyoming and it was transmitted not later than August 2012 to the 
U.S. Department of Education. The payment of these Fiscal Year 2013 
funds was not done until February 25, 2014. Please see Appendix D. 
Frankly, my file transmission email is so long ago that it no longer 
exists. You might look, for another example, at Appendix E, which is 
the transmission of Fiscal Year 2014 information, provided to the U.S. 
Department of Education on April 1--2013. It will be some time until we 
see these funds, but it has already been slightly over a year since the 
information was supplied.
    Anecdotally, districts have related that the U.S. Department of 
Education has related having staffing problems and/or data processing 
issues that prevent timely payment processing. These things do indeed 
happen, and we've all had them. However, when these excuses are used 
year after year (again, anecdotally), this certainly becomes an 
irritant at the school district level, but in the end, what this means 
is at least some of the students who should have received the benefit 
of these funds to provide their education will not receive the benefit 
of these funds. Please also see Appendices F and G. These are part of a 
presentation of the U.S. Department of Education to the National 
Association of Federally Impacted Schools Association on March 17, 2014 
regarding payment processing timelines. I'd like to point out here that 
processing of some aforementioned ``Basic Support'' 8003 funding dates 
back three years to 2011; likewise the 'Payments for Property' 8002 
funding goes even further, back to 2010. To be fair, there are legal 
issues that may impede payment processing by the U.S. Department of 
Education. On the other hand, these legal issues are now dragging on 
for four years.
    Schools cannot provide a consistent program platform to ``Cultivate 
the Next Generation'' without having at least a relatively consistent 
fiscal basis. Some of the programs noted above, like that of Fremont 
County School District #14, are becoming static, as the Impact Aid 
funding necessary to provide and expand such programs has relatively 
dwindled.
    It isn't right to whine about problems without offering solutions, 
so, quite frankly, first and foremost providing a 4 percent Impact Aid 
appropriations increment for fiscal 2015 as compared to 2014 would 
begin to address the issues; this would require about $64 Million.
    Working toward forward funding of the program and thus alleviating 
a lot of the payment problems is more difficult, as that requires a 
'double appropriation' for two fiscal years in one, currently requiring 
about $2.774 Billion. With our current national fiscal situation, this 
is not an easy issue to address.
    However, to really ``Cultivate the Next Generation'' for Native 
students, these should be concrete goals to achieve. Finally, steps 
should be taken to fully fund the program in order to properly address 
the issue of federal responsibility for education of federal, and in 
our case here today, Native students. Frankly, although it will likely 
prove politically unpalatable for the foreseeable future, the source of 
funds to do these tasks should, by the way our government is supposed 
to work, be achieved during the long overdue rewriting of the federal 
tax code as a part of proper balancing of federal revenues and 
expenses.
    Thank you.
    Attachments
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The Chairman. Right on the mark. Thank you, Mr. Hudson.
    Mr. Siqueiros?

    STATEMENT OF ALBERTO SIQUEIROS, E.d.D., SUPERINTENDENT, 
   BABOQUIVARI UNIFIED SCHOOL DISTRICT, TOHONO O'ODHAM NATION

    Mr. Siqueiros. Thank you, Mr. Chairman, Vice Chairman and 
members of the Committee.
    I am the very proud superintendent of the Baboquivari 
Unified School District on the Tohono O'odham Nation.
    I am here to tell you that transformation is working in our 
school district. I thank the Committee, the U.S. Department of 
Education and the Indian Affairs Committee, in particular, for 
the support of the things that are going on in our school 
district.
    However, I will tell you that in September 2009 when I 
arrived at my school district, I would classify or characterize 
things as probably the most challenging experience I have ever 
experienced in my entire life. Things were in disarray; 
systemically, we were broken in every aspect of any expectation 
that a parent, community member or governing board member, the 
U.S. Congress or the Senate would have regarding a public 
school.
    Rather than just make lofty goals and establish short and 
long term aspirations for our kids and for ourselves, we 
decided to take a very aggressive approach to transformation. 
In fact, my elementary and high schools in January 2010 were 
classified as PLAs, persistently lowest achieving schools. That 
meant that we were in the bottom five percent of all schools in 
the State of Arizona. My middle school was a Tier 2 corrective 
action school, not that far behind.
    In fact, I will tell you that when I first arrived and 
looked at the data going back to the early 2000s, my elementary 
kids in the third grade were achieving mastery on the State 
assessment at about 50 percent in reading, writing and math.
    However, as they progressed through the grades, by the time 
they were tenth graders, taking the High Stakes Assessment for 
graduation from high school, less than 30 percent of our 
students were achieving mastery. Instead of getting better, we 
were regressing. This not only required courageous 
conversation, but also required courageous action.
    Working together within our community with the support of 
my governing board, we began a comprehensive transformation 
effort that included rehiring our teachers. At that particular 
point, Arizona law permitted me to non-renew certain 
classifications or classes of teachers. We non-renewed 52 of 
our 87 teachers and started all over. Of the 52 that were non-
renewed, 13 were invited to come back after an interview 
process.
    Our goal moving forward was not just to hire warm bodies to 
fill spaces, but to look and seek highly qualified and highly 
effective teachers. Sherman Alexi classifies his experiences 
growing up in the State of Washington as follows: The teachers 
that end up in tribal school situations are typically teachers 
without options. Consider for a moment how challenging that is. 
Usually we are located out in the middle of nowhere, very far 
from large urban settings, so it is challenging to find and 
retain teachers in our situations.
    As part of this process, we have leveraged our impact aid 
Federal dollars, our entitlement dollars and our State aid to 
create a situation by which we can recruit highly effective 
teachers and sustain them over a period of time.
    We have also looked at recruiting effective principals. We 
believe that the principal is the most influential part of the 
educational system; the teacher is the most important. Direct 
instruction matters the most.
    In addition to hiring teachers, we have created a very 
comprehensive approach to our instruction. We have identified 
four fundamental questions that we ask: what do we want our 
kids to learn; how do we know when they have learned; what do 
we do when they do not learn; and what do we do when they do 
learn?
    As we answered those questions, we designed a very 
successful program that I will tell you right now, in the very 
short period of time, we have had some huge successes. Our goal 
is to truly create a college and career going culture in our 
school district.
    In May 2008, our graduation rate was 39 percent. I am 
pleased to report that in May 2013, that rate elevated to 78 
percent. Thirty of our students out of 52 graduating seniors 
applied for college; 24 were accepted and 19 enrolled. Over $2 
million in scholarships for our school district was a record. 
The number of kids attending college was also a record.
    You can see that our transformation effort is really 
producing the intended outcomes and our students are becoming 
much more successful through self-determination.
    Thank you.
    [The prepared statement of Mr. Siqueiros follows:]

    Prepared Statement of Alberto Siqueiros, Ed.D., Superintendent, 
       Baboquivari Unified School District, Tohono O'odham Nation
Background
    In January 2010, the Baboquivari Unified School District (BUSD) 
took the bold step to say enough to a legacy of mediocre performance 
and results, and committed to transforming itself to an excelling 
school system. Since that time, teachers, staff, administrators, 
parents, governing board, and of course, students have put forth an 
unprecedented effort to move from a school district producing mediocre 
results to one with high expectations and accountability! Our students 
have made significant strides in their academic ``self-determination'' 
to become effective learners who strive for excellence and our staff/
teachers' level of expertise and experience has never been better. We 
believe the Baboquivari Unified School District is now poised to become 
the great educational institute that we all envision, and that our 
students will be college and career ready upon graduation from high 
school! To this end, we have challenged our students, parents, 
community, and the BUSD educational team to take full advantage of our 
ongoing transformational efforts toward ensuring that:

        1.  Students will reach their academic potential preparing them 
        for the next academic year (yes, including college for our high 
        school graduates);

        2.  Parents will be highly involved and engaged with their 
        children's education;

        3.  Schools will provide a nurturing and positive learning 
        environment conducive to effective learning; and,

        4.  The entire community will develop the ``determination'' 
        that makes the education of our children its highest priority!

    Long gone are the days of low expectations, mediocre performance 
and results often seen in Tribal educational settings. We insist that 
the entire BUSD community support our efforts in educating our 
children. We believe that a community with high expectations will 
result in a quality educational system! These efforts will positively 
impact the health and wellness, economic prosperity, and quality of 
life of the Tohono O'odham for generations to come. The students of the 
Tohono O'odham Nation deserve a quality education and the Baboquivari 
Unified School District is poised and committed towards fulfilling its 
obligation.
    Examples of our students' success include:

  <bullet> Nearly a 40 percent increase in Baboquivari High School's 
        graduation rate over the past five years.

  <bullet> Six Gates Millenium Scholars and one Dorrance Scholar over 
        the past three years.

  <bullet> Over $2 million in scholarships in 2013 (all-time high for 
        BHS).

  <bullet> State & National Science Fair winners in 2012, 2013, and 
        2014.

  <bullet> 52 seniors graduated in the Class of 2013; 30 applied to 
        college; 24 were accepted; 19 enrolled in college in 2013 (all-
        time highs for BHS).

  <bullet> K-3 cohorts have the highest achievement of all grades as a 
        result of the full benefit of our current transformation 
        efforts.

Call to Action: Our Journey to Success
    As one of two school systems on the Tohono O'odham Nation, BUSD is 
a state public school serving 1,100 students in Preschool through 12th 
grade (the Bureau of Indian Education serves approximately 800 
students). BUSD has a P-5 elementary school, 6-8 middle school, 9-12 
high school, and two alternative schools serving students in grades 6-
12. In 2012, Baboquivari High School (BHS) and Indian Oasis Elementary 
School (IOES) were designated as Persistently Lowest Achieving Schools 
by the Arizona Department of Education. By definition, these two 
schools were in the bottom 5 percent of all schools in Arizona. In May 
of 2008, BHS had a graduation rate of 39 percent and IOES had not made 
Adequate Yearly Progress in several years (Arizona Department of 
Education, 2008). As a result, a call to action was necessitated and 
put into motion by the BUSD Governing Board. The first step was 
initiated in the summer of 2009 when the new superintendent was hired 
to spearhead the transformation of BUSD.
    With the support of the Governing Board, the newly hired 
superintendent began the process of developing a strategic plan at 
addressing the root cause of BUSD's underperforming schools. Several 
internal data points including student achievement, attendance, 
enrollment, discipline, college going rates, student interviews, 
community input, budgetary allocations and expenditures, teacher/staff 
performance, and parent involvement & engagement rates were used in a 
comprehensive needs assessment. Additionally, data points directly 
associated to the overall wellness of the Tohono O'odham Nation 
including high school completion rates among adults, college attainment 
levels, unemployment rates, and incidences of health issues were 
utilized. As a result, four key areas were identified to guide the work 
of transforming BUSD:

        1.  Design a highly effective and efficient educational support 
        services division: Human Resources, Transportation, Facilities, 
        Technology, and Finance.

        2.  Establish positive and meaningful partnerships and 
        relationships with key stakeholders including the Tohono 
        O'odham Nation, higher education institutions, parents, and the 
        various wraparound service agencies on the Tohono O'odham 
        Nation.

        3.  Develop a highly effective system of support for the 
        Governing Board that leads to highly effective governance.

        4.  Develop a teaching and learning approach based on best 
        practices that focuses on student achievement.

    The emphasis moving forward was to assume a systems-thinking 
approach by which all district divisions required partial to full 
overhauls. Unfortunately, the comprehensive needs assessment 
demonstrated serious inefficiencies within all district departments and 
divisions. The following sections will identify those deficiencies 
along with their remediation.
Educational Support
    The design of a highly effective and efficient educational support 
services division that included Human Resources, Transportation, 
Facilities, Technology, and Finance was and continues to be the basis 
for supporting highly effective instruction and ultimately learning.
Human Resources
    The quality of any organization is dependent on the quality of its 
employees. BUSD believes that teachers are the most important and that 
principals are the most influential members of the school district. And 
of course, other staff including non-certificated personnel and all 
district level-administrators exists to provide key levels of support 
to the teaching and learning that occurs in classrooms. Following were 
the existing deficiencies and the remediation BUSD has taken over the 
last four years toward building and developing the quality of services 
provided by employees:

    Human Resource Deficiencies and Remediation:

         Ineffective hiring practices and procedures that de-emphasized 
        hiring highly effective certificated personnel and support 
        staff were exceedingly evident. BUSD had resorted to simply 
        filling positions by settling with the only candidate applying 
        for a teaching vacancy.

    BUSD committed to developing a comprehensive approach and 
philosophy of hiring only effective personnel. Specifically, the 
following corrective steps were taken:

        a.  BUSD determined that it would follow a turnaround approach 
        in the School Improvement Grant process and chose to non-renew 
        all probationary teachers in the spring of 2010. In all, 49 out 
        of 87 classroom teachers were non-renewed. All the non-renewed 
        teachers were provided the opportunity to reapply for teaching 
        positions and only 13 were rehired. All other teachers for the 
        following school year were hired from a BUSD hosted teacher 
        fair held in Tucson, Arizona.

             It is important to note, that BUSD was bound by Arizona 
        Law in its decision to select only probationary teachers for 
        non-renewal. Because BUSD was not effectively following State 
        mandated teacher evaluation procedures, it could not bring 
        forward statement of charges for poor performance for teachers 
        in the continuing category.

        b.  BUSD determined that it had to develop a comprehensive 
        approach to hiring teachers. The following procedures and 
        policy changes were put in place:

      <bullet> Developed two strategies for teacher recruitment:

           Teacher Recruitment One or TR1: When a vacancy exists, BUSD 
        will follow the typical hiring procedures in school districts: 
        post an advertisement, accept applications, invite qualified 
        candidates to interview, select the bestqualified candidate.

           Teacher Recruitment Two or TR2: BUSD administration will 
        identify superstar teachers from other school districts and 
        actively recruit them. Identification of such teachers is based 
        on referrals by other educators, newspaper articles indicating 
        previous successes of a teacher such as awards or 
        implementation of unique programs, or self identified teachers 
        that contact BUSD. The superstar status is based on data that 
        demonstrates their ability to move students academically. The 
        concept of TR2 is very similar to how college sports coaches 
        identify and recruit star athletes.

      <bullet> BUSD committed to increasing teacher pay by 
        strategically utilizing its Federal funding (including Impact 
        Aid) and State funding. BUSD went from being one of the lowest 
        paying school districts in Arizona to the highest in 2013. The 
        goal is to continue on this trajectory each year.

      <bullet> BUSD changed the governing board policy that provides 
        the superintendent discretion in placing newly hired TR2 
        teachers on any step on its teacher salary schedule. Arizona 
        school districts typically have policy that awards between five 
        to ten years of experience to newly hired teachers for 
        placement on salary schedules. Commonly, this is why teachers 
        don't move from one school district to another after they have 
        surpassed this range of years of employment in any one school 
        district. BUSD now has the ability to recruit experienced 
        superstar teachers from other school districts by leveraging 
        this change in policy.

        c.  BUSD determined that it had to develop a comprehensive 
        evaluation system for teachers. It appeared that prior to 2010, 
        employees were not provided with an effective evaluation. For 
        teachers it simply became a process of compliance with law and 
        not providing accurate and meaningful evaluations.
         The shift from a philosophy of compliance to one of meaningful 
        feedback for continuous teacher growth has become the norm in 
        BUSD. Teachers recognize that the principal will progress 
        monitor their instruction as a means toward improving academic 
        achievement of students. As a result, BUSD developed and 
        implemented the Teacher Performance Evaluation System based on 
        the Arizona Framework for Measuring Educator Effectiveness. Key 
        components of this system include:

      <bullet> All teachers, regardless of experience, receive at least 
        two evaluations per year. The first evaluation is completed by 
        the end of the first quarter of the school year. This provides 
        the teacher with feedback early in the year and, if warranted, 
        the teacher is placed on an improvement plan with the necessary 
        support.

      <bullet> The school principal is required to conduct multiple 
        formal and informal teacher observations throughout the year.

      <bullet> Three district teams comprised of the superintendent, 
        key district personnel, principals, and school improvement 
        coaches conduct monthly walkthroughs that provide principals 
        with specific observational feedback on teacher performance. 
        Each of the teams observes the same teachers monthly and the 
        observational data is scored and monitored throughout the year.

      <bullet> Each teacher is also evaluated based on the academic 
        achievement growth of their students using classroom and whole 
        school results.

         Issuance of subsequent year contracts is based on these 
        components of the BUSD Teacher Performance Evaluation System.

        d.  BUSD requires an annual evaluation of all non-classroom 
        certificated staff and all non-certificated staff. Though a 
        policy requiring annual evaluations had been in place in 
        previous years, it was not until recently that this became the 
        expected practice for all supervisors.

        e.  BUSD implemented strategic and curricular aligned 
        professional development for instructional certificated staff 
        and para-professionals. All certificated staff received an 
        extended contract that requires attendance in professional 
        development before the beginning and end of the school year. 
        During the 2013-14 school year, instructional staff was 
        provided 19 days of professional development aligned to the 
        district curriculum and expectations including Common Core 
        Standards, AVID (Advancement Via Individual Advancement), 
        Success for All Reading, PowerTeaching Math, technology, and 
        Tohono O'odham Culture awareness.

        f.  All BUSD non-instructional support staff receive job-
        specific training during the summer and throughout the school 
        year as needed.

        g.  BUSD strongly believes that school principals are the most 
        influential members of the school district. As a result, three 
        highly effective school principals with a deep knowledge of 
        instruction, learning, and successful school leadership 
        experiences are currently leading the three schools in BUSD. 
        Each of the principals were recruited and invited to apply.

Transportation
    Transportation Deficiencies and Remediation:
    The BUSD transportation required a shift from antiquated 
transportation procedures to a system that took into account more 
current methods of training, routing, and maintenance of its vehicle 
fleet.
    The following changes resulted in improved transportation of 
students to school and home:

        a.  Hired an experienced transportation director to assist in 
        providing effective leadership.

        b.  Downsized the number of mechanics from five to one in 
        accordance with industry standards based on the size of the 
        district's bus and white fleet. The one remaining mechanic 
        oversees general breakdowns and miscellaneous repairs of the 
        fleet.

        c.  Determined that it is more cost effective to contract out 
        repairs and general maintenance of the district's fleet.

        d.  Developed more strategic bus routes to reduce, as much as 
        possible, the time students spend on the bus. Due to the 
        remoteness of the district this continues to be a concern.

        e.  Provide ongoing training to bus drivers in transportation 
        specific areas in addition to areas generally considered more 
        academic such as Positive Behavioral Intervention and Supports 
        (PBIS), Child Find, Mandatory Reporting, and Tohono O'odham 
        Culture awareness.

    BUSD acknowledges that our bus drivers are the first and last 
school employees to see our students daily. As such, we strongly view 
this department as a critical component of student success.
Facilities
    Facilities Deficiencies and Remediation:
    The BUSD Facilities were in major need of remediation at the start 
of the 2009 school year. All aspects of classrooms were in poor 
condition from walls needing repair and painting, inoperable light 
fixtures, stained and dirty carpets, and broken furniture. Generally, 
our school grounds were not maintained and in poor condition as well. 
Playgrounds, common areas, and athletic fields and facilities were not 
up to standard. Our students were not being provided a learning 
environment conducive to effective learning.
    The following changes resulted in aesthetically pleasing and safe 
learning environments for students, teachers & staff, and parents:

        a.  Hired a facilities director and grounds lead with expertise 
        in the areas of facilities & grounds maintenance and repair.

        b.  Strategically leveraged our Impact Aid, ARRA funds, and 
        donation funds in the development of a comprehensive plan to 
        fix all existing facilities and grounds and to develop 
        maintenance schedules including:

      <bullet> Purchase of new furniture aligned to our teaching 
        practices (desks and tables easily movable for cooperative 
        learning activities).

      <bullet> Replaced carpet in all classrooms.

      <bullet> Painted all classrooms and in the process of painting 
        the exterior of schools.

      <bullet> Repaired classroom fixtures such as clocks and pencil 
        sharpeners.

      <bullet> Repaired roofs and replaced ceiling tiles.

      <bullet> Designed and built a playground for the elementary 
        school.

      <bullet> Brought all athletic fields and courts up to Arizona 
        Interscholastics remoteness Association standards so that our 
        student athletes were provided safe venues to practice and play 
        games. This included the purchase of score boards in several 
        venues that didn't have them.

        c.  Provide department specific training and support for all 
        employees in accordance with industry standards.

Information and Technology
    Information and Technology Deficiencies and Remediation:
    BUSD had several areas of concern regarding its ability to deliver 
IT services both as a management system and as an instructional tool. 
Because this area required a high level of expertise, a new IT director 
was hired with the expertise and school district experience needed to 
resolve a variety of key issues. The following provides details of the 
deficiencies and how they were remediated.
    Internet Service
    The district had only 9 mbps of bandwidth total during the 2010-11 
school year. The bandwidth was shared with the district office and all 
three school sites. Each school site had only 1.5 mbps each. During the 
2012-2013 school year the district was upgraded to 200 mbps; 100 mbps 
at the district office/middle school, 50 mbps at the elementary school, 
and 50 mbps at the high school.
    In November 2011, the district procured Internet services using the 
E-Rate process. No vendors were able to deliver services at the 1000 
mbps rate. The only service provider that could promise more than 
50mbps was the Tohono O'odham Utility Authority (TOUA). The district 
applied for E-Rate funding and asked the vendor to deliver service at 
the earliest available time allowable using E-Rate funding. At the 
time, TOUA did not have any fiber based Internet services. After many 
conversations and pressure on TOUA, Fiber Optic services became 
available to BUSD in July 2012. BUSD was the first TOUA customer able 
to order fiber optic Internet services. However, the district was not 
able to fully switch to the fiber optic Internet services until 
December 2013. This was due to TOUA's inability to provide reliable 
service.
    E-Rate Funding
    Baboquivari School District had not received E-Rate funding between 
FY 2008 and FY 2011. This was due to procurement and filling deadline 
issues. BUSD brought in a consulting vendor to help correct issues and 
get the district back in good standing with the E-Rate Program. The 
district is now reimbursed for 90 percent of all communications 
services. This includes Internet, telephone, cellphones, websites, 
internal connections, and maintenance of internal connections.
    Infrastructure
    The district infrastructure was not fully operational through the 
2010-11. The district had purchased a wireless solution and it was 
never configured or fully installed. Access points were mounted and no 
cabling was present to power up the wireless access points. Network 
switches were connected at lower than ideal speeds using copper and not 
fiber. Some network switches were broken and not replaced. Servers were 
also in need of upgrades and replacement parts.
    During the fall of 2012 the district procured a full district-wide 
infrastructure overhaul using E-Rate funding. Funding was approved in 
February 2013. The district completed work at all sites in January 
2014. E-Rate funds were only used at the middle school. School 
Improvement Technology Grant funding was used at the elementary and 
high schools. Using the school Improvement Technology Grants allowed 
the district to get the project fully funded. E-Rate funding only 
covers 90 percent of any costs.
    Hardware
    The district purchased 800 student laptops during the 2008-09 
school year. Only 450 of those devices were deployed in 2010. Many of 
the deployed laptops did not have sufficient wireless coverage to be 
used effectively. After the infrastructure was installed and repaired 
all the devices were deployed.
    Power
    Power is still a big concern. Most of the network infrastructure 
had no battery backup power. The district infrastructure now has at 
least 2 hours of runtime and can support wireless devices and phones 
for that time.
    Support
    The district now has effective and responsive tech support. 
District technicians are able to work with staff and ensure that all 
district technology is in good working order. Also, the district now 
has a technology integration specialist. This position supports 
teachers directly in effective technology and content integration.
Finance
    Finance Deficiencies and Remediation:
    Effective budgeting processes are essential to the successful 
operation of a school district. BUSD receives funding from State Aid, 
Federal Entitlement Funds, and Federal Impact Aid. However, during the 
2009-10 school year it became evident that BUSD didn't have defined 
budgeting processes with a clear focus toward supporting schools. The 
major areas of concern included:

        a.  Lack of a defined budget development processes.

      <bullet>  Decisions were made arbitrarily by the District's 
        business manager and superintendent without input from key 
        stakeholders including principals, department directors, and 
        parents

      <bullet>  The school board had little to no involvement in the 
        development of the budget, other than final approval.

        b.  Lack of effective and efficient budget management 
        processes.

        c.  Out of compliance with State of Arizona Audit requirements. 
        In the 2009-10 school year, auditors were unable to complete 
        discovery due to a lack of established general budgeting 
        procedures, therefore, the completion of audits were delayed 
        over a four-year period.

    The following measures were taken to remediate these deficiencies:

        a.  Hired an effective school business manager with 20 years of 
        successful experience in Arizona public schools.

        b.  Developed an inclusive budget development process that 
        included the formation of a budget committee comprised of 
        teachers, parents, principals, and district administrators.

        c.  The Governing Board is provided a detailed budget report at 
        a regular board meeting once a month.

        d.  A study session is held annually with the Governing Board 
        to review budget recommendations and to gather input from 
        members.

        e.  Upgraded budgeting and payroll software.

        f.  Provide ongoing training to the business department staff.

        g.  Developed best practice business procedures.

        h.  Hired a reputable school auditing firm that assisted in 
        bringing BUSD into compliance with the Arizona Auditing 
        requirements.

Meaningful Partnerships
    Key to the success of BUSD is the establishment of positive and 
meaningful partnerships and relationships with key stakeholders 
including the Tohono O'odham Nation, higher education institutions, 
parents, and the various wraparound service agencies on the Tohono 
O'odham Nation. BUSD strongly believes that if we are not successful 
with this component, our transformation efforts will plateau and 
sustainable effective learning will not occur.
The Tohono O'odham Nation
    BUSD believes that a strong partnership with the Tohono O'odham 
Nation's leadership is a key component in the sustainability of an 
effective school system. Of particular mention is BUSD's efforts to 
create a C-20 Council on the Tohono O'odham Nation that brings key 
decision makers together to support the education of children (the C in 
this case refers to conception). Such a group will create the necessary 
collective efficiencies, not only for the benefit of BUSD, but the 
greater community as well. All service agencies and departments on the 
Tohono O'odham Nation will develop the much needed coordinated health 
and wellness approach so urgently needed.
    As an example, it is critical that a priority is placed on 
providing an expecting female the needed wraparound services she 
requires so that both mom and the baby have a healthy pregnancy term. 
There are two primary reasons for this: First, the expected female 
needs guidance and support in maintaining a healthy pregnancy from 
prenatal care to awareness on what the dos and don'ts are during a 
pregnancy. For example, the incidence of Fetal Alcohol Syndrome has a 
direct correlation on the child's health and cognitive abilities for 
the rest of his/her life. Expecting moms need to have knowledge of this 
and know exactly where and how to get the necessary assistance. 
Unfortunately, the standard of prenatal care for Native American women 
is not at the level recommended by the medical profession. Again, there 
is a need to provide all the necessary services to ensure that 
expecting moms have knowledge and access to the appropriate prenatal 
care and information associated with a healthy pregnancy. Secondly, 
brain research clearly informs us that the brain is about 80 percent 
fully developed by the age of three and to a great extent, the level of 
prenatal services are highly correlated to the cognitive developmental 
levels of children in Tribal environments. Sadly, there exists a crisis 
surrounding this matter.
    Just as critical in the C-20 Concept is the quality of early 
childhood services and education provided to children in our community. 
The research on learning suggests that children who are exposed to 
strategic learning opportunities and that are provided the appropriate 
levels of nutrition and wellness care are more apt to succeed 
academically. Unfortunately, this too is in a state of crisis and 
requires a significant overhaul. For example in BUSD, we do not see a 
correlation with kindergarten readiness with those students that are 
enrolled in the Tohono O'odham Nation's Head Start Programs and those 
that are not.
    The current levels of wraparound services and safety nets for 
children of all ages fall short of providing the quality of services 
needed to support BUSD students and their families . The C- 20 Concept 
is intended to support the necessary changes that lead to the delivery 
of effective wraparound services and the development of the much needed 
safety nets for all BUSD children and their families. However, 
extensive work is required to reach this goal.
    Generally, BUSD is garnering the needed support from the Nation's 
leadership through the following means:

        1.  Regular meetings with the Human Resource Development 
        Committee of the Legislative Council. BUSD provides progress 
        reports and updates on program changes in addition to the 
        implementation of new programs.

        2.  Annual Progress Report presentations to the Legislative 
        Council.

        3.  Established meetings with directors and leaders of the 
        Tohono O'odham Nation's key departments including Education, 
        Behavioral Health, Recreation, Police Department, Fire 
        Department, and Public Safety, along with the leadership of the 
        Indian Health Services. This effort is continuously improving 
        as BUSD strives to build collaborative partnerships and 
        relationships with the various agencies on the Tohono O'odham 
        Nation.

        4.  Periodic progress report presentations and meetings with 
        the Chairman of the Tohono O'odham Nation. This is an area that 
        continues to improve annually.

        5.  BUSD's direct involvement in the Circles of Care Grant that 
        supports a coordinated model of the delivery of effective 
        wraparound services and the development of safety nets for the 
        Tohono O'odham Nation.

Higher Education
    BUSD has established effective partnerships with several 
institutions of higher education including the University of Arizona, 
Pima Community College and the Tohono O'odham Community College. In 
particular the Tohono O'odham Community College (TOCC) and BUSD have 
established a comprehensive partnership to support the needs of 
students. Key components of this partnership include:

        1.  Monthly collaborative meetings with BUSD and TOCC 
        leadership.

        2.  Implementation of a dual credit programs where juniors and 
        seniors earn college credit for Math and English classes taught 
        at Baboquivari High School.

        3.  TOCC and BUSD are partners in the delivery of a United 
        States Department of Education i3 Innovation Grant that 
        provides students in K-12 with AVID. AVID is a college 
        preparation system that infuses key strategies and expectations 
        in the development of a college going culture.

        4.  An MOU that ensures that both institutions will maintain a 
        collaborative partnership in providing education to the Tohono 
        O'odham in Preschool through Community College.

    Additional information related to BUSD's partnership with the 
University of Arizona is described later in this document.
Parent Involvement and Engagement
    BUSD has made the involvement of parents, guardians, and caretakers 
a priority. The research and literature in educational best practices 
suggests that perhaps the most important component of student success 
is the level of parental involvement in their children's education. 
BUSD has implemented several key strategies and programs in supporting 
our parents, guardians, and caretakers involvement in their children's 
education. Among these are:

        1.  POP Academy: The Power of Parents Academy is designed to 
        engage parents at two critical levels in the lives of their 
        children as described below:

        a.  Provide a series of classes over 15 hours in seven weeks on 
        topics that affect their children's lives and that impact their 
        quality of life now and in the future. This includes the 
        following topics:

      <bullet>  How to navigate the school system successfully 
        (communicating with teachers, principals, and staff).

      <bullet>  How to setup homework expectations that lead to 
        effective learning.

      <bullet>  Knowledge and awareness of social issues that influence 
        their children (gangs, controlled substances, sexual activity, 
        etc.).

      <bullet>  Basic life skills such a financial literacy, how to 
        maintain your vehicle, how to repair leaky faucets.

      <bullet>  Topics surrounding health and wellness.

        b.  Enforce to parents the significance of their own education 
        by building the selfdetermination that they too can become 
        lifelong learners. Their attendance not only helps them but 
        they also become role models for their children. This in itself 
        is perhaps the most significant aspect of the POP Academy: 
        children seeing their parents attend school.

         BUSD is collaborating with TOCC in the development of programs 
        that will encourage parents in returning to school to earn a 
        GED and/or to continue their education. Unfortunately, nearly 
        50 percent of the adults on the Tohono O'odham Nation have not 
        graduated from high school and very few have college degrees.

        The POP Academy will eventually assist our parents in 
        continuing their education as follows:

      <bullet>  Those that successfully complete the POP Academy will 
        earn a college credit through TOCC.

      <bullet>  Those who have not graduated from high school will be 
        encouraged to enroll in TOCC's Adult Education Program leading 
        to a GED.

      <bullet>  Those who have graduated from high school will be 
        encouraged to enter a certificated program, an associates 
        degree or a transfer program.

        An educated populace results in an improved quality of life for 
        all members of the Tohono O'odham Nation. Certainly, as 
        research suggests, there is a correlation in students' academic 
        success and the levels of educational attainment of their 
        parents. The POP Academy is designed to capitalize on this.

        2.  BUSD strongly believes in the significance of parent 
        involvement and engagement and has dedicated funding that 
        provides a fulltime district level administrator and a parent 
        involvement specialist at each campus.

        a.  The district Coordinator of Parent/Community Involvement & 
        Engagement oversees all related programs and events associated 
        with this effort.

      <bullet>  Provides training and support for the site-level parent 
        involvement specialist.

      <bullet>  Plans and implements district level programs including 
        the Back to School Celebration and the Miracle on Main Street 
        Winter Festival. The Back to School Celebration is a 
        comprehensive effort that brings over 1,000 students and 
        parents to a community type fair. Students receive haircuts, 
        backpacks and supplies, and participate in fun activities; 
        while parents are provided classes in a variety of school and 
        community related topics. The Miracle on Main Street provides 
        and brings a community building approach where the schools and 
        community agencies provide educational activities for students, 
        school and community leaders perform Christmas carols, and 
        students and adults are provided culturally relevant stories. 
        Well over 1,000 meals are served to those in attendance.

      <bullet> Oversees the POP Academy.

      <bullet>  Oversees the McKinney-Vento Homeless Assistance 
        Program.

      <bullet>  Leads BUSD's community outreach efforts including 
        newsletters, communiques, and community meetings.

        b.  The site level Parent Involvement Specialists work directly 
        with teachers and principals in all aspects of engaging parents 
        including:

      <bullet> Conducting home visits as needed.

      <bullet>  Providing transportation to parents to school events/
        meetings and to school related appointments with external 
        agencies.

      <bullet>  Making referrals for students and families to 
        wraparound agencies as needed.

      <bullet>  Participating in a variety of parent meetings.

      <bullet> Translating for parents as needed.

      <bullet> Overseeing their sites clothing bank.

      <bullet>  Collaborating with the district coordinator in the 
        delivery of all parenting classes and events.

        3.  Generally BUSD expects parents, guardians, and caretakers 
        to be fully involved and engaged in their child's education. 
        BUSD has established a compact that requires the following of 
        parents:

        a.  Read to and/or with their child at least 20 minutes daily.

        b.  Spend at least 10 minutes daily having a meaningful 
        conversation about school with their child.

        c.  Volunteer at a minimum 4 hours monthly in their child's 
        school. This can include participation in the POP Academy and 
        other parent classes and events throughout the year.

        d.  Attend the back to school event where students are provided 
        backpacks school uniforms, shoes, haircuts, etc.

        e.  Attend Parent/Teacher conferences as scheduled twice per 
        year or as needed.

Governance
    BUSD strongly believes in providing a highly effective system of 
support for the Governing Board that leads to highly effective 
decisionmaking.

        a.  The superintendent maintains communication with each board 
        member in matters related to the operation of the school 
        district. In BUSD this includes regular written updates along 
        with communication on pertinent information as it occurs.

        b.  The superintendent provides the Governing Board with the 
        necessary information that prepares members for effective 
        decisionmaking at official meetings. This includes the 
        dissemination of critical information in the board packet 
        delivered timely in advance of scheduled board meetings so as 
        to provide adequate time for review. Additionally, in BUSD, the 
        superintendent meets and/or calls each board member in the days 
        prior to the board meeting to provide additional information 
        and/or clarification to items and supporting documents as 
        needed.

        c.  The superintendent ensures that timely and effective 
        training is provided to the Governing Board and its members. 
        Additionally, an annual retreat is held where the Governing 
        Board reviews previous years goals and outcomes, and sets the 
        same for the subsequent year.

Teaching and Learning
    BUSD is highly committed to providing a rigorous learning 
environment for each of its students. To this end, BUSD has implemented 
a teaching and learning approach based on best practices that focus on 
student achievement. We also believe that the most significant aspect 
of learning is direct instruction and as such, we have focused on 
improving our teachers preparation and readiness to deliver a rigorous 
curriculum that leads to students being next year ready at the 
completion of the current school year, and of course, college and/or 
career ready upon graduation from high school. BUSD believes that the 
most influential members of the district are its principals and that 
its teachers are the most important. BUSD also recognizes that the 
development of highly effective learning environments can only occur 
through individuals that have a clear purpose, unwavering passion, and 
a powerful persistence. BUSD has such a team of professionals in its 
teaching staff, administrative team, and support staff.
    As previously mentioned in this document, BUSD has implemented a 
comprehensive approach at providing training and support to all members 
of the instructional team including teachers, para-professionals, 
principals, and district staff and administration. Specifically, the 
instructional team participates in a focused effort that includes:

        1.  Professional Development (PD) for the Instructional Team

        a.  24 days contractually required PD in 2013 and 19 days in 
        2014 (these days were scheduled prior to the school year and 
        after the school year, with three days occurring during the 
        school year; reduction in PD days attributed to decreased 
        funding).

        b.  Additionally, job-embedded training and support is provided 
        throughout the year in reading and math. Trainers model lessons 
        and strategies, observe teachers, and provide immediate 
        feedback and coaching.

        c.  Site level instructional coaches provide differentiated 
        professional development and support to teachers aligned to 
        principal observations and district walkthrough observations 
        (described in the Human Resource section of this document).

        d.  The following topics and areas continue to be the focus of 
        the BUSD Professional Development Program:

      <bullet> Common Core Standards
      <bullet> Tohono O'odham Culture
      <bullet>  Beyond Textbooks (curriculum mapping, lesson planning, 
        and benchmark assessments)
      <bullet> Marzano's Art and Science of Teaching
      <bullet> Classroom Management
      <bullet> Technology as an Instructional Tool

        e.  All teachers new to the district and all teachers in their 
        second year in the district are required an additional 16 hour 
        of professional development in the BUSD New Teacher Induction 
        Program. Teachers receive extended training in the areas 
        highlighted above. This is part of our efforts at ensuring that 
        all teachers receive the same level of training and support in 
        the expected pedagogy and curriculum.

    Additionally BUSD has set very clearly articulated expectations for 
teachers that are employed in our schools. The teacher contract 
includes the following language that articulates expectations:

        1.  The Teacher agrees to teach such grade, grades or subjects 
        and to perform such other professional duties as may be 
        assigned by the Governing Board or its administrators including 
        but not limited to:

        a.  Meet the needs of all students through the use of the 
        District's adopted instructional strategies, programs and 
        procedures so that all students are given every reasonable 
        opportunity to achieve one year's growth in the course(s) 
        taught. This includes, but is not limited to the use of AVID 
        strategies, Success for All, and all other adopted materials.

        b.  Integrate the provided technology into everyday instruction 
        in alignment with the District's grade level and/or content 
        expectations.

        c.  Maintain a classroom environment that promotes effective 
        learning through the use of best practice routines and 
        procedures, displaying exemplary student work, posting learning 
        objectives prominently visible to students in grade level 
        appropriate language, maintaining bulletin boards/displays 
        consistent with current instructional themes, and that promotes 
        the Tohono O'odham Culture.

        d.  Maintain an adherence to professional growth by attending 
        all District approved professional development during the term 
        of the contract.

        e.  Collaborate with grade-level and/or content teachers at a 
        minimum of once per week in the development of lessons, units, 
        and activities in alignment with the District's curriculum.

        f.  Collaborate with grade-level and/or content teachers and 
        other school personnel at a minimum of once per week in the 
        disaggregation of student achievement, attendance, and 
        behavioral data so as to develop and implement differentiated 
        instruction as needed.

        g.  Meet District expectations in the use of school-wide and 
        classroom quantitative data that measures student academic 
        progress in alignment with the Arizona Framework for Measuring 
        Educator Effectiveness

        h.  Complete lesson plans weekly in alignment with the 
        district's curriculum and post electronically utilizing the 
        District's lesson plan template.

        i.  Maintain accurate records in Infinite Campus, which are 
        updated and posted as required by the District. This includes, 
        but is not limited to, grade book, grades, attendance, and 
        correspondence.

        j.  Develop and design a teacher web page that includes, but is 
        not limited to, teacher welcome page, lesson plans, curriculum, 
        assignments, and links. k. Provide timely communication to each 
        of your student's parents or guardians at a minimum once per 
        quarter or as needed.

        l.  Recognize the significance of the Tohono O'odham Culture in 
        teaching and learning and, as such, demonstrate proficiency 
        through its integration into daily instruction in alignment 
        with the District's expectations.

    As part of the issuance of contracts, each principal meets with 
each teacher and reviews the language to ensure that there is full 
understanding and agreement of the district's expectations.
    BUSD has implemented the following key initiatives over the past 
four years that will enable students to be next year ready upon the 
completion of the current school year and college and career ready upon 
graduation from high school. The selection of these initiatives was 
strategic having been preceded by careful review, research, and 
dialogue with principals, teachers, and school improvement specialist.

  <bullet> Common Core Implementation--Though required in Arizona 
        through a phase-in over three years, BUSD implemented fully 
        prior to the full implementation time period. The Common Core 
        Standards provide the rigor our students need to successfully 
        be college ready.

  <bullet> Success For All Reading--provides a very structured program 
        with intensive professional development and training. As a 
        result, BUSD teachers have become effective teachers of 
        reading. SFA also provides fluid leveled groupings that support 
        struggling as well as proficient readers.

          --IOES was labeled as an SFA Ambassador School as a result of 
        significant growth in reading.

  <bullet> Power/Teaching Math Framework--Similar to SFA, this 
        framework provides effective instructional strategies 
        incorporated with our math adoptions.

  <bullet> Beyond Textbooks--Provides BUSD teachers for a framework for 
        curriculum mapping, teacher resources for lesson planning, and 
        assessment calendars.

  <bullet> Increased rigor in graduation requirements. The BUSD 
        Curriculum provides our students with a much deeper 
        understanding of the Common Core Standards in all courses. 
        Additionally, high school students are offered the necessary 
        honors courses through direct instruction on campus, online 
        courses, and dual credit courses through TOCC and Pima 
        Community College.

  <bullet> Data Driven Response to Intervention

          --Effective use of Formative & Summative Assessments at all 
        levels

          --GALILEO weekly and quarterly assessments

          --Interventions provided during school, afterschool, 
        Saturdays, and all Intercessions

  <bullet> BUSD added 23 school days to the school year in 2011. The 
        additional days was an increase to the 157 day school year up 
        to that point.

    More specifically in our goal of students being college ready upon 
graduation from high school, BUSD has implemented the Wisdom Project. 
The Wisdom project is a joint effort with TOCC under a United States 
Department of Education i3 Innovation Grant in the delivery of a 
college readiness system. As mentioned previously, the implementation 
of the AVID system is funded through this grant. AVID, Advancement Via 
Individual Determination, is a college readiness system for elementary 
through higher education that is designed to increase school-wide 
learning and performance. AVID accelerates student learning, uses 
research based methods of effective instruction, provides meaningful 
and motivational professional learning, and acts as a catalyst for 
systemic reform and change (AVID, 2014). Beginning in elementary school 
the WICOR method, which stands for writing, inquiry, collaboration, 
organization, and reading becomes the standard for learning. AVID 
curriculum is used in AVID elective classes and in content-area 
classes. These basic skills are research-based strategies that help 
prepare students for college.
    Additional components of the Wisdom Project are:

  <bullet> Dual Credit Courses through TOCC and Pima Community College.

  <bullet> Focused visits to university and college campuses where 
        students are introduced to specific fields of study and 
        professions.

  <bullet> Teen Town Hall where students plan and implement a forum 
        where community leaders from throughout the Tohono O'odham 
        Nation are invited to respond to specific student issues, 
        concerns, and questions.

  <bullet> On campus college fairs and presentations where students 
        receive information from colleges from throughout Arizona and 
        the United States.

    Components of the Wisdom Project currently in development are:

  <bullet> Internships where high school students will be placed in 
        degree required job experiences.

  <bullet> The Compact to Academic Success (CAS). BUSD is finalizing 
        this unique program with the University of Arizona (UA) that 
        provides Baboquivari High School Students with the following 
        based on very specific requirements while in high school:

          1. Automatic Admission to the UA.

          2.  ``Front of the line'' status for financial aid and 
        scholarship opportunities.

          3.  Dedicated retention services while enrolled at the UA

        BHS students must:

          1. Maintain a GPA of 3.0 or higher

          2.  Maintain an attendance rate of 95 percent or higher

          3.  Must be involved in extra-curricular activities

          4.  Model exemplary citizenship

          5.  Successfully complete all prerequisite courses

          6.  Meet ACT or SAT requirements

    Our goal is to expand this program to other universities in Arizona 
in subsequent years.
Next Steps
    Additional efforts are currently in development and scheduled for 
implementation for the 2014- 15 school year:
  <bullet> BUSD is adding an additional 20 days to the 180 day school 
        year currently in place.

  <bullet> Implementing a digital program:

          -- All math and reading materials at the elementary school 
        will be fully digital

          -- The middle school and high school will be fully digital

          -- Each student will be issued a take home tablet that will 
        have all materials as listed above on their tablets

          -- Each classroom will have a 75'' HD monitor with a touch 
        overlay that will permit the teacher and students to manipulate 
        it with their finger. Additionally, the teacher and students 
        will have the capability of manipulating the 75'' HD monitor 
        from their tablet.

          -- This will create a true 21st Century learning environment 
        that prepares students not only for college, but also for the 
        exponentially moving technological world. This will permit our 
        students to develop skill sets and foundational knowledge of 
        21st century possibilities.

  <bullet> Moving to a School-wide III budgeting process that permits 
        the blending of all entitlement funds with State aid.

  <bullet> Development of a Foundation that will support scholarships 
        for students, additional educational programs, and increased 
        salaries for teachers and staff.

    The development of a Superstar Teacher salary schedule based on 
specific criteria aligned to student achievement and leadership. 
Teachers successfully meeting this criteria are moved to a ``master 
level'' pay rate significantly higher than the current salary schedule.
Closing
    BUSD is committed toward meeting its obligation of providing a 
comprehensive learning environment that leads to college and career 
readiness for our students. Over the past four years, BUSD has had 
courageous conversations with all key stakeholders and has taken the 
courageous actions resulting in improved outcomes for students. Though 
we celebrate these successes, we recognize the need toward continued 
improvement and will continually strive to do what is best for our 
students. I thank you for allowing me the opportunity to share the 
challenges and successes on BUSD's Journey to Success and welcome 
further discussion.

    The Chairman. Thank you.
    Mr. Gish?

STATEMENT OF BRENT D. GISH, EXECUTIVE DIRECTOR, NATIONAL INDIAN 
                  IMPACTED SCHOOLS ASSOCIATION

    Mr. Gish. Chairman Tester, Vice Chairman Barrasso and 
members of the Senate Committee on Indian Affairs, thank you 
for the opportunity to come before you today.
    My name is Brent Gish. I serve as Executive Director of the 
National Indian Impacted Schools Association, commonly known as 
NIISA. Prior to accepting this position, I was privileged to 
work as a teacher and school administrator at two of 
Minnesota's federally impacted Indian land school districts for 
nearly 40 years.
    The Impact Aid Program, established by Congress in 1950 and 
administered through the Department of Education, provides 
Federal funds for public school operations that otherwise would 
have been provided by local tax revenues but for the presence 
of Federal property.
    The program provides funding for eligible districts 
enrolling federally-connected children. My comments will focus 
on the challenges faced by Indian land school districts and the 
children they serve.
    There are roughly 1,350 public school districts nationwide 
receiving impact aid payments; 635 of those are Indian land 
school districts. These districts enroll over 941,000 
federally-connected students, of which approximately 115,000 
reside on Indian treaty, Federal trust and Alaska Native Claims 
Act lands.
    The Impact Aid Program supports educational services to 
over 12 million children enrolled in eligible districts. The 
Impact Aid Program provides a formal link between tribal 
governments and public school districts.
    Through the Indian policies and procedures written into 
current law, tribes and parents of Indian students are afforded 
the opportunity to provide valuable insight and recommendations 
on whether Indian students are equal participants in all 
district programs and school activities.
    Should they determine the need, they may request changes in 
school programs and content. If the discussions reach an 
impasse, the impact aid statute provides for an administrative 
appeal process. NIISA supports the IPP process in current law.
    The timeliness of impact aid payments is a major concern 
for eligible districts. Boards of education and school 
administrators must make very difficult and legally binding 
decisions regarding programming and personnel for the upcoming 
year without knowing how much impact aid funding they will be 
receiving, trusting that Congress will pass an appropriations 
bill in a timely manner.
    For some heavily impacted school districts, impact aid can 
represent 50 percent or more of their operating funds. It 
cannot be overemphasized how critical impact aid is in 
providing basic, day-to-day educational services.
    With the current Federal budget deficit and the Budget 
Control Act of 2011 passed to address the budget shortfall, we 
acknowledge the challenges that forward funding would present 
to the Congress. However, we believe the rationale for it is 
sound, is in the best interest of Indian land students and 
tribal communities.
    The implementation of the Budget Control Act hit Indian 
land school districts in Fiscal Year 2013, a year before most 
Federal education programs. Faced with a reduction in impact 
aid funding, our districts sought ways to absorb the loss with 
the least negative impact on our students.
    These cuts came at a particularly critical juncture in 
school reform and restructuring efforts. A high percentage of 
Indian land schools are in various stages of school 
improvements. Evidence-based programs and strategies have been 
adopted to close the achievement gaps, improve attendance, 
increase graduation rates and advance culturally relevant 
practices and strategies in preK-12 classrooms, the ultimate 
goal being to prepare our students for tomorrow's workforce and 
higher education. If we are to be successful, federally 
impacted Indian land districts need adequate resources to get 
it done.
    NIISA gratefully acknowledges that for Fiscal Year 2014, 
Congress restored impact aid funding levels to near pre-
sequestration levels. We propose, however, a modest four 
percent increase for Fiscal Year 2015 which would allow Indian 
land districts to begin the recovery process due to loss and 
declining revenues, to invest in new technology, to rehire 
teachers and support staff, to implement more culturally 
relevant practices and classes, to upgrade facilities and more.
    The goal of each and every one of our districts is to 
become a high performing school district. We fervently believe 
that we can accomplish it, our school boards and administrators 
can make it happen with adequate resources, impact aid being 
one very critical element.
    Section 8007 of the law authorizes appropriations for 
school construction and facility maintenance. The amount 
appropriated in recent years has been grossly inadequate to 
address the backlog of need for facility replacement, 
renovation and maintenance of Indian land districts.
    The ability of Indian land districts to address facility 
needs varies but for many it is nearly impossible to secure the 
necessary bonding for construction or major renovation. It is 
urgent that Congress seek a solution for this critical need.
    Thank you, Mr. Chairman and members of the Committee.
    [The prepared statement of Mr. Gish follows:]

   Prepared Statement of Brent D. Gish, Executive Director, National 
                  Indian Impacted Schools Association
    Chairman Tester, Vice Chairman Barrasso, Members of the Senate 
Committee on Indian Affairs, thank you for the opportunity to appear 
before you today on behalf of the National Indian Impacted Schools 
Association and the National Association of Federally Impacted Schools.
    My name is Brent Gish. I serve as the Executive Director of the 
National Indian Impacted Schools Association (NIISA). Prior to 
accepting this position, I was privileged to work as a teacher and 
school administrator in two of Minnesota's federally impacted Indian 
land school districts for nearly 40 years.
    The NIISA organization is an advocacy organization working on 
behalf of some 635 public school districts that enroll children whose 
residence is located on Indian treaty, federal trust, or land conveyed 
under the Alaska Claims Settlement Act. These parcels of land are 
exempt from taxation, the primary sources of operating funds for public 
schools. The long term goal of NIISA is to secure full funding of the 
Impact Aid program.
    The Impact Aid Program, established by Congress in 1950 and 
administered through the Department of Education, provides federal 
funds for public school operations that would have otherwise been 
provided by local tax revenues but for the presence of federal 
property. It should be noted that the Impact Aid Program also provides 
funding for districts enrolling children whose parents serve in the 
armed forces residing either on or off military installations, federal 
low rent housing and civilians that live on or work on federal 
property. My comments will focus on the challenges faced by Indian 
lands school districts.
    As you are no doubt very keenly aware, approximately 93 percent of 
American Indian and Alaska Native elementary and secondary students 
attend public schools with the remaining 7 percent of students 
attending Bureau of Indian Education/Bureau of Indian Affairs and 
privately funded schools.
    Roughly 1,350 public school districts nationwide receive Impact Aid 
payments. These districts enroll over 941,000 federally impacted 
students of which approximately 115,000+ reside on Indian/trust/Alaskan 
Native Claims Settlement Act lands. The revenues generated by federally 
impacted students through the Impact Aid program supports educational 
services to over 12,000,000 children enrolled in eligible districts. 
Impact Aid is non categorical funding and therefore can be utilized for 
any allowable expenditure as authorized by state education agencies and 
the local school board. This is but one example of efficient and 
effective utilization of federal programs, dollars generated by a 
segment of the student population benefiting the whole student 
community.
    Every state represented on the Senate Committee on Indian Affairs 
receives substantial amounts of federal Impact Aid. In FY 2013, 
estimated Basic Support payments amount to nearly $610,000,000 or half 
of the total Impact Aid appropriation of $1.2+ billion. \1\ It should 
also be noted that in addition to basic support funding, eligible 
districts receive funding for children with special needs and 
facilities upkeep and repair.
---------------------------------------------------------------------------
    \1\ Alaska--$132.6 M; Arizona--$160.3 M; Hawaii--$31.8 M; Idaho--
$4.8 M; Minnesota--$18.1 M; Montana--$40.7 M; Nebraska--$15.6 M; North 
Dakota--$23.8 M; New Mexico--$86.1 M; South Dakota--$47.8 M; 
Washington--$39.3 M; Wyoming--$8.6 M
---------------------------------------------------------------------------
    For Indian Country, the Impact Aid program is a vital element of 
public policy for providing every child with a free and appropriate 
public education or as is the focus of this hearing, ``Cultivating the 
Next Generation''. Signed into law in 1950, the Impact Aid program is 
one of the oldest federal education programs. The land base that 
generates Impact Aid consists of 53 million acres of Indian trust land 
in the lower 48 states and 44 million acres included in the Alaska 
Native Claims Act. The Impact Aid program is but one example of the 
United States government fulfilling its trust responsibility--in this 
case, for education--for American Indian and Alaska Native peoples.
    The Impact Aid program provides a formal link between tribal 
governments and public school districts serving students residing on 
Indian lands by requiring school districts to consult with tribes and 
members of tribal communities. Federally impacted school districts must 
consult with tribes and Indian communities to develop Indian Policies 
and Procedures (IPP). Through this process, tribes and parents of 
Indian students are afforded the opportunity to provide valuable 
insights and recommendations on whether Indian students are ``equal 
participants'' in all district programs and school activities. Further, 
tribes and parents may request changes in school programs and content. 
Should discussions reach an impasse, the Impact Aid statute provides 
for an administrative appeal process. We support the processes 
established through the Indian Policies and Procedures provision in 
current law.
    The timeliness of Impact Aid payments is a major concern for 
eligible districts. Impact Aid is not a forward funded program as are 
other major education programs, e.g., Title I, Individuals with 
Disabilities Act (IDEA) and Bureau of Indian Affairs/Bureau of Indian 
Education, etc. Boards of Education and school administrators must make 
very difficult decisions regarding programming and personnel for the 
upcoming school year without knowing how much Impact Aid funding they 
will be receiving. For some heavily impacted school districts, Impact 
Aid revenues can represent 50 percent or more of its operating funds. 
It cannot be over-emphasized how critical Impact Aid is in providing 
basic day-to-day educational services.
    Forward funding of the Impact Aid program would be a major step 
forward, and long overdue I might add, in providing timely payments to 
school districts. With the federal current budget deficit and the 
Budget Control Act of 2011 to address deficit, we acknowledge the 
challenge that forward funding would present to Congress, however, we 
believe the rationale for it is sound and in the best interest of 
Indian lands students and tribal communities.
    The implementation of the Budget Control Act hit Indian lands 
school districts in FY 2013, a year before most other federal education 
programs. Faced with a reduction in Impact Aid funding, our districts 
sought ways to absorb the loss in funding in a variety of ways: reduced 
professional development; increased class size; deferred facility 
maintenance; reduced instructional staff; reduced support staff; 
reduced course offering including culturally relevant classes; reduced 
technology replacement and expanded student usage; close community 
based schools; reduce bus routes and extra curricular transportation, 
etc. These cuts came at a particularly critical juncture in school 
reform and restructuring efforts. A high percentage of Indian lands 
schools are in various stages of school improvement. Evidence based 
programs and strategies have been adopted to close the achievement gap, 
improve attendance, increase graduation rates and embed culturally 
relevant practices and strategies PreK-12 with the ultimate goal being 
to prepare our students for tomorrow's workforce and higher education. 
If we are to be successful, federally impacted Indian land districts 
need adequate resources to get it done!
    To illustrate the challenge ``the sequester'' posed to Indian lands 
districts, school administrators offered the following insights and 
perspectives. One superintendent from an Oklahoma district stated his 
district has `virtually no local tax base' from which to fall back on 
in times of budget reduction. It was further sighted by a 
superintendent serving students living on Navajo trust lands, ``It is 
important for all students to have opportunities equitable to other 
districts with lucrative tax bases. . .To penalize students due to lack 
of a tax base and the failure of the federal government to pay its 
`fair share' of the tax burden is a detriment. . .There are no 
alternative resources to make up to lost Impact Aid revenues. . .'' 
Finally, a superintendent from a Nebraska school district put it this 
way in referencing the impact of the sequester, ``We are planning for 
tough times instead of seeking ways to provide children with more 
opportunities to be successful in life's endeavors.'' Suffice it to 
say, the sequester hit federally impacted Indian land school districts 
hard and to the detriment of the students, their communities and 
reservations.
    The illustrations above reflect the impact of the sequester on FY 
2013 and previous years of funding levels that fall short of keeping up 
with inflation. NIISA gratefully acknowledges that for FY 2014, 
Congress restored Impact Aid funding levels near pre sequester levels. 
NIISA wishes to express its deepest and most sincere appreciation. We 
are hopeful that future budgets and appropriations passed by Congress 
will reflect its obligation to adequately compensate federally impacted 
school districts for lost taxing authority. And, as we prepare for FY 
2015, the Administration's Budget request to Congress would increase 
the Department of Education's/Impact Aid budget by 1.9 percent. Given 
the deficit our country is facing, one might conclude that increase is 
more than fair. However, I would point out that the Impact Aid program 
has not been fully funded since 1969 resulting in prorated payments to 
eligible districts. The NAFIS/NIISA request to Congress is for a modest 
4 percent increase. That would allow Indian land districts to begin the 
recovery process due to lost and declining revenues. . .to invest in 
new technology; to rehire teachers and support staff; to implement more 
culturally relevant practices and classes; to upgrade facilities; etc. 
The goal of each and every one of our districts is to become a high 
performing school district. We firmly believe it can be accomplished. 
Our school boards and administrators can make it happen with adequate 
resources, Impact Aid being one very critical element.
    Finally, Impact Aid is authorized under Title VIII of the 
Elementary and Secondary Education Act. Section 8007 authorizes 
appropriations for school construction and facility maintenance. The 
amounts appropriated in recent years have been grossly inadequate to 
address the backlog of need for facility replacement, renovation and 
maintenance in Indian lands districts. The ability of the Indian land 
district to address facility needs varies but for many it is nearly 
impossible to secure the necessary bonding for construction or major 
renovation. For instance, there are 80 school districts made up 
entirely of Indian lands and there are an additional 161 school 
districts which have at least 50 percent Indian lands. The situation 
was not created by the Indian lands districts and needs a federal 
solution!
    Chairman Tester and Members of the Senate Committee on Indian 
Affairs, thank you for extending an invitation to the National Indian 
Impacted Schools Association to appear before this Committee. We look 
forward to working with you as legislation comes before Congress that 
affects children residing on federal trust, tribal and Alaska Claims 
Settlement lands.

    The Chairman. Thank you, Mr. Gish, and thank all of you who 
provided testimony today. I appreciate your coming to 
Washington and providing your perspective on our children's 
future.
    I will start with you, Ms. Broaddus. Senator Dorgan sat in 
the same seat last week. He told us about a roundtable that he 
held with Federal agency officials working on programs that 
affect families and children. His organization was doing 
something very, very similar in one instance on the same 
reservation without knowing. Everyone was working but no one 
was communicating because they didn't know the other was there.
    You brought up the importance of communication and 
collaboration. Can you speak to some of the collaboration that 
OPI and Montana have been involved in, their success and why 
they were successful?
    Ms. Broaddus. Coordination and collaboration in Indian 
Country is often more difficult and complicated than it seems 
with many funding streams and many different interests at the 
table. At the Office of Public Instruction, we found those 
partners are very willing, however, especially when it comes to 
issues surrounding children and families on our reservations.
    We have coordinated meetings from the very beginning of our 
school improvement grants. As an example, we asked that all 
partners come to the table to talk about this unique funding 
stream and the ways that Montana wanted to employ specific 
strategies for American Indian students.
    Everyone came to the table and brought forth really great 
ideas and really helped us as valuable partners in our overall 
process.
    The Chairman. We all know about the population figures. For 
example, in Montana, we have 3,600 individuals, about 7 percent 
of our general population is Native American, yet 17 percent of 
our male inmates are Native American, 21 percent are female.
    One thing I know contributes to higher incarceration is 
lack of educational attainment, yet in Montana--you can correct 
me if I am wrong--Native kids are expelled or suspended from 
schools at rates that far exceed their population, making it in 
some cases nearly impossible to complete their education.
    Why do you think this is happening in your personal opinion 
and is there anything we can do to help turn it around?
    Ms. Broaddus. That is a very complicated but very good 
question. I agree with those specifics regarding suspension and 
expulsion rates across our State. In particular, I think a key 
issue at the heart of the matter is the difficult life 
experiences and the trauma that many American Indian students 
face.
    I think often behaviors described as discipline issues 
could often be solved in better addressing student mental and 
emotional needs and concerns. Through our Schools of Promise 
work we have trained our teachers and our administrators to 
understand those signs of trauma and PTSD in American Indian 
students and to better respond to give them tools they can use 
to decelerate those behaviors in our schools.
    The Chairman. I appreciate that.
    I am going to go to you, Dr. Siqueiros.
    I think we are all impressed by the strides you have made 
in your school district. I think your experiences may help us 
develop policies for under performing schools but it probably 
isn't easy, as you just said.
    You took up the first challenge of realigning faculty and 
administration. How vigorous was the evaluation process and how 
did it affect instruction throughout that process?
    Mr. Siqueiros. At that particular point, my school district 
did not have a very successful comprehensive evaluation process 
in place. We took what was in current use and revised and 
modified it. We had expectations that all employees, 
particularly our teachers, would be evaluated.
    The evaluation process was not simply for dictating if you 
were coming back or not. Think about that for a moment. One of 
the things we implemented was that all teachers would be 
required to have the first evaluation be completed by October 
15, the end of the first quarter. That allowed us, as an 
instructional team, to provide the necessary support for that 
teacher to improve.
    Secondly, it also gave us the opportunity within Arizona 
law that in the event we had to bring forward a statement of 
charges for dismissal, it gave us that opportunity as well. At 
that particular point, because of all those efforts and the 
efforts in terms of our teacher recruitment and retention 
efforts, we brought in a different type at the level of 
expertise for our school district that we had not seen before.
    That does a number of things. One, those highly effective 
teachers are not just graded in the classroom for direction 
instruction, but they are also role models for the neighboring 
teacher in the classroom next door.
    The Chairman. Amen, brother.
    I am impressed with your technological upgrades, although I 
actually come from rural America and I know that there is a 
lack of access to high speed Internet. Tell us more about your 
experience with the E-Rate process and how increased access to 
the Internet is affecting instruction in your schools?
    Mr. Siqueiros. I would tell you that we are incredibly 
challenged right now with bandwidth, accessibility and capacity 
within the Tohono O'odham Nation. The Nation received a large 
grant a few years ago and they are laying fiber optics 
throughout the Nation, in particular for the school systems and 
other government agencies.
    The capacity that the Tohono O'odham Utility Authority has 
right now is not sufficient to serve all of its customers. 
Given our technology emphasis moving forward, we would take 
about 50 percent of total capacity.
    We are in the process of utilizing our E-Rate funding 
possibilities--I hope I use the terminology correctly--we are 
going to dark fiber to that capacity by borrowing, hopefully, 
or renting the pipe that comes in from Tucson, Arizona to the 
Tohono O'odham Nation to purchase from a third vendor the 
necessary bandwidth for us to do the necessary work. That 
funding will come directly from our E-Rate.
    The Chairman. Thank you very much.
    Vice Chairman Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman.
    I have questions for Mr. Hudson.
    Your written testimony talks about teacher quality having 
about six times the positive effect on student learning in 
terms of other factors combined. Teacher quality improvement 
was instrumental in improving the reading proficiency at the 
Fremont County School in Ethete, Wyoming. The proficiency went 
up significantly in grades K-6. Can you elaborate on how 
teacher quality was increased in the Fremont County Schools?
    Mr. Hudson. We decided to put an intensive reading program 
in place. Our teachers virtually had to be retrained and we had 
two lead teachers who were extensively trained and then that 
was distributed throughout the entire K-6 educational staffing. 
First teachers were trained and additionally, the 
paraprofessional educators we had were also trained.
    This meant whether you had the teacher or the 
paraprofessional, they were both capable of influencing the 
reading and eventually the mathematics instruction that was 
given to the students. Consequently, within those two areas, 
our test scores which had shown zero percent proficiency for I 
couldn't even tell you how long, managed to come up to 60 
percent proficiency within one year by virtue of having those 
lead teachers and the program they developed with folks from 
Sheridan, Wyoming. They instigated that and came up with some 
dramatic gains in reading. They weren't quite as good in 
mathematics but there was a 40 to 50 percent increase.
    It has also increased the class time devoted to reading and 
mathematics. This came at the expense of cultural programs but 
since we are tested and evaluated in reading and mathematics, 
that is where we put our efforts. So far they have paid off.
    Later in the written testimony, you might note that it has 
not gone up from that 60 percent. It stagnates. It is like my 
colleague from New Mexico notes, for some reason it hits a 
platform and it is very difficult to drive it past that point. 
We are still trying but haven't gotten much farther than that.
    Senator Barrasso. Following up with that, we heard from Dr. 
Siqueiros that the teachers are most important, but the 
principals are most influential. I wonder if we can visit a 
little about that because recruitment and retention of 
qualified teachers are issues many tribal communities face.
    In your written testimony, you mentioned teachers are the 
educational resource for Indian children. Can you talk a bit 
about the role of the principal in helping with recruitment, 
with putting forward a program? You mentioned how intensive the 
retraining of the teachers was to have them prepare to help 
students in this way and maybe some of those retention 
strategies you are now going to use in Fremont County and 
whether maybe we can replicate those successes in other places.
    Mr. Hudson. The principals are actually also a part of the 
staff training. They went through this and made sure the 
teachers attended the training sessions to start. Their 
evaluation programs also started to require they had to be 
proficient within reading and mathematics instruction as 
delivered to the students. That became part of their 
evaluation.
    Wyoming requires any initial teacher to be evaluated twice 
and a continuing contract teacher once a year. The evaluation 
was rewritten to include proficiency in their instruction in 
mathematics and reading. Additionally, staff training was 
provided by the principals to any of the staff who came up with 
deficiency in providing these programs to the teachers and in 
turn, to give it to the students.
    From an administrative point of view, the principals have 
to be trained to do a proper evaluation of the staffers. It 
isn't the same plain Jane evaluation as has been pointed out 
that says okay, we've done this, looks good, you're doing a 
good job, you step in the classroom twice a year, then you walk 
out the door and the teacher goes back to what they were doing 
anyway.
    The staff has to be quarterly and directly evaluated as far 
as their capability of putting this program into effect. If 
they don't put the program into effect, then it doesn't happen 
and a lot of excuses start. The administrators have to develop 
and implement a very valid teacher evaluation platform.
    In turn, our superintendent, Ms. Michelle Hoffman--you are 
familiar with her--was the driving force to put this into 
place. She said this will be and when she says that, it is.
    Senator Barrasso. You talked about parental involvement and 
also used the term trusted adults. Could you talk a bit about 
that?
    Mr. Hudson. Primarily the Fremont County School districts, 
the adults are an integral part of the educational program 
because they are there at every school board meeting, not just 
for the required impact aid meeting. They have a valid input 
into the educational program of their students.
    We hold teacher-parent visitations at least twice a year on 
a formal basis and informally at any time so the students and 
parents can visit with the appropriate instructor and/or the 
administrator.
    Sometimes discipline gets to be an issue and because of 
that we have hired additional counselors to try and forestall 
such issues before such things as suspension or expulsion 
happen. Teacher involvement of educated parents is a very valid 
part of that program.
    Senator Barrasso. Thank you. Thank you so much for your 
testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Chairman Tester and Vice Chair 
Barrasso.
    One of the first hearings Senator Tester had as Chairman of 
this Committee was to talk about early childhood learning, 
helping prepare children before they come to your institutions 
to actually be ready to learn. I think as we look at how we can 
get beyond the plateau, we definitely believe that is a 
strategy that needs to be pursued.
    I want to take a moment and think about who you all 
represent and then think about a room full of kids because that 
is who you are really here representing. In your hands are the 
futures, their futures. Kids behind their parents, their 
grandmas and grandpas, usually will tell you the most 
significant and important people in their lives are their 
teachers.
    That is why I think it is so important that we get that 
piece right and that we recruit the best and brightest of those 
teachers. We try to get kids more prepared to learn but I think 
you are absolutely headed in the right direction.
    I was listening to your story and said, man, I wish we 
could do that in our schools in North Dakota. I wish we could 
take your programs and introduce them in North Dakota. You kind 
of brushed over how you actually got to the recruitment of 
those teachers. Was it pay increases, was it additional time 
off, additional support, promises of more access to decision 
making in the classroom? What was it that you pitched to those 
new teachers that made such a compelling case that you were 
able to get folks to come to Indian Country and your school 
districts and teach?
    Mr. Siqueiros. Before I answer that question, I want to put 
an emphasis towards conception in early childhood education. We 
are incredibly concerned about what occurs at conception to a 
child and all the issues that exist on tribal lands.
    In our committee, we are emphasizing that very issue, that 
all the wraparound services need to come to the aid of that mom 
to prevent FSA and to prevent nutritional issues. Think about 
brain development for a second. The brain is almost fully 
developed by the age of three, somewhere between 80 and 85 
percent, way before we get them in pre-school, kindergarten 
through 12th grade. It is important that we address that as 
well. The importance of wraparound services is critically 
important.
    In response to your question about teacher recruitment, we 
established two recruitment efforts, what we call a Teacher 
Recruitment I and Teacher Recruitment II. TR1 is the typical. 
We have an opening, post the position on our web page, we take 
and screen applications and invite people for interviews. With 
TR2, we go out and seek highly effective teachers, either word 
of mouth, they won an award, they come out in newspapers, 
something like that. We go out and recruit them very much like 
college football coaches recruit their star quarterback. We 
have taken that approach.
    Because we have leveraged our Federal impact aid dollars 
and our entitlement dollars and our local State aid, we have 
been able to raise our teacher starting salaries. We are now 
the highest paid school district in the State of Arizona as a 
result of leveraging those dollars to apply as much as possible 
back to the classroom. I need that great teacher to make this 
happen.
    Secondly, we also provide highly intensive, professional 
development programs that are in line with our curriculum and 
our expectations of instruction. We are also clear about those 
expectations when we sign or issue a contract. What we expect 
is fully spelled out in their contracts.
    Third, we take care of folks. It is not just about the 
money, it is not just about professional development. We work 
really hard to create an environment that is effective for them 
as much as it is for students. We spend a lot of time in 
indoctrination of the Tohono O'odham culture because the 
majority of our teachers are not Native Americans.
    Senator Heitkamp. It sounds like it is absolutely the right 
direction. I appreciate your comments about don't just look at 
early childhood, look at all those things.
    Senator Murkowski and I have introduced a commission on the 
status of Native Americans bill because I think we have for too 
long siloed these issues. We are here talking about K-12 
education, we talk about higher education and student 
attainment, we talk about public health, and we talk about 
housing.
    We talk about all these issues but at the end of the day, 
all we really want to do is create a much better environment 
from the word go for Native American children because that is 
going to elevate everyone. Too often, you have these struggles 
where we fight over what is really very few resources saying 
no, don't put it in housing, it is much more important to put 
it in education; no, don't put it here.
    If I could have another second, I want to talk about 
forward funding. We saw this during the shutdown. I can't tell 
you the panic calls I got from schools who are already late in 
getting their payments saying now what, now what do I do? 
Should I lay off teachers, where do I go with this?
    I think everyone here who understands Indian Country 
understands the importance of forward funding. I will ask you 
what are the other things we can do on impact aid schools 
collaboratively beyond forward funding that could make a 
difference? I guess that is to you, Mr. Gish.
    Mr. Gish. We understand the difficulties that basically a 
double appropriation would bring and yet we want to continue to 
keep it at the forefront because these are the challenges that 
our school districts face. They are making a decision in March 
and April, negotiating with bargaining units and entering legal 
contracts with them. We have to make decisions based on the 
fact that Congress will act in good faith.
    If appropriations could at least come in a timely manner, 
even if it weren't a forward funded program, if we could say we 
can count on that first payment coming in October after 
beginning our school year or even a month or two later, there 
have been times that we have had to face no funding until mid-
winter, until February and March and that means our school 
districts are out there, borrowing money, paying interest and 
those dollars never return. Those are dollars taken away from 
our students.
    It would be critical and be a huge step forward if the 
appropriations would come and federally impacted schools are 
going to get their first payment as schools begin. That would 
be huge.
    On early childhood--if I might add on to that--it is the 
most fertile ground in Indian Country. If we have a child who 
comes to school ready to learn, we can do miracles but when our 
first step is to start remediation, it means catch up and some 
never will.
    Ms. Broaddus said we can't do it alone. That is absolutely 
true. We need to be able to tap into every other resource in 
the tribe, early childhood programs or Head Start programs and 
put our heads together. We can do it together.
    If we knew we had an appropriation and could count on it in 
those early months in the fall, that would relieve a lot of the 
stress and pressure and those dollars that go out of our school 
systems to pay interest.
    Senator Heitkamp. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Gish. You are right on early 
childhood.
    Senator Franken?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. First of all, I would like to recognize 
Mr. Gish. Thank you for being here. Thank you for all your 
years of work in education and in Indian Country.
    Chairman Tester, I would like to commend you for the series 
of hearings on Indian education issues.
    One of the things I want to talk about is school 
construction and school reconstruction. The Bug O Nay Ge Shig 
School on Leech Lake Reservation has been a project of mine, to 
get this thing reconstructed. It's a pole barn. The kids 
actually have to leave the school if winds get above 40 miles 
an hour.
    We had a very tough winter this year and sometimes that 
means they have to leave the school when it is below zero and 
the wind is howling. They have to run to another structure 
about 400 yards away. There are all kinds of physical problems 
with this school.
    Mr. Siqueiros, you mentioned the renovation of school 
facilities in your district as part of your overall school 
improvement plan. Can you elaborate on how you were able to 
create a safe learning environment for your students and staff?
    Mr. Siqueiros. One of the things we have done effectively 
is through our finances and our budgeting processes. I 
mentioned in my opening statement we have been able to leverage 
all our funding sources highly effectively.
    We have been able to carry forward our impact aid dollars 
and keep them in reserves up to about $5 million annually. 
Initially, one of the things we did was reinvest those dollars 
and renovate some of our facilities that were in dire need of 
renovation from painting walls to replacing furniture, carpets, 
tiles, leaking roofs, on and on and on.
    One of the issues we are hoping to prevent reoccurring over 
and over is lack of maintenance of our facilities. That is our 
emphasis for our school district, that we provide the necessary 
resources in terms of not just the money but also people power 
that are knowledgable and expert and can do this for us.
    The unique circumstance that we face--because we are 60 
miles outside of Tucson, Arizona--is if our air conditioning 
breaks, there is some additional cost to get folks out.
    Senator Franken. How far out?
    Mr. Siqueiros. Sixty miles. That requires that we have 
trained personnel go in and change air filters, provide general 
maintenance and things like that. In Arizona, obviously we have 
extreme heat.
    Senator Franken. Dry heat though, isn't it?
    Mr. Siqueiros. Dry heat, absolutely.
    Senator Franken. It's cold in Minnesota, dry cold so it is 
not so bad.
    Mr. Siqueiros. Very true.
    That is the approach we have taken. However, our goal in 
the very near future is to add an additional wing at our 
elementary school that we will leverage with impact aid 
dollars. Hopefully, we will be in a position to apply for some 
of those contract dollars from impact aid but we are also going 
to leverage some of that with some local funding opportunities 
from a program called First Things First that will allow us--we 
find matching dollars--up to $5 million to build an early 
childhood center for our school district.
    Senator Franken. I think that is great. I met with the 
Tohono's Chairman. Tohono is 60 miles from Tucson and that, as 
those of us who work on this Committee know, makes a difference 
in terms of the finances of a tribe.
    Leech Lake that I am referring to--Mr. Gish knows--is not 
near a big city like Tucson. It is near Bemidji, but a 
population center makes a difference in terms of how you can 
put aside the impact aid.
    Let me talk about mental health a bit because I had a 
roundtable in St. Paul with a lot of the different Bands and 
tribes in Minnesota on impact aid and what had to go by the 
wayside. We had one Band where they had to lay off their mental 
health people in the school and they had a couple suicides.
    I just think that mental health is tremendously important. 
I put forward a bill called Mental Health in Schools. We 
actually got about $55 million in funding in the last 
appropriations to do grants for schools that use a kind of 
model where they train everyone from the school bus driver to 
the teachers to the lunch ladies to recognize when a kid may 
have a mental health issue and to go to the counselor or school 
psychologist. These were some of the people who were lost when 
impact aid got cut.
    Having those professionals see the kid and get the kid 
access to community mental health services has made a huge 
difference. It is a great program and has made such a 
difference to kids and obviously to their families.
    Can you talk, Mr. Gish or anybody, about the needs in 
Indian Country in terms of mental health services and substance 
abuse treatment services?
    Mr. Gish. I like to give credit where credit is due. The 
credit goes to the Red Lake Nation where I spent the last six 
years of my career. My service came right after a very 
traumatic tragedy that occurred in the school and the 
community.
    As we looked at a recovery plan, we first looked at what 
are the characteristics of high performing schools and looked 
at research there. Foundational to that was just as we are 
speaking, that we need healthy learners. If we are going to 
make great progress and become a high performing school, we 
need healthy learners. Healthy learners make healthy schools.
    We got a multi-faceted approach but it began with the Red 
Lake Nation and their health services, specifically their 
mental health services. They provided our schools what we call 
cultural counselors, trained individuals, enrolled members of 
the Red Lake Band who were in each and every one of our 
schools.
    They became the first level of mental health services for a 
child. Maybe they were just angry some day and needed to talk 
to someone but it was someone who looked just like them, 
someone from their culture and someone who understood where 
they were coming from. They had resources above them and also 
had school psychologists who were available as well.
    After that first level says no, this goes beyond me, this 
is more than just a little bit of a single incident or anger 
but going to people more technically trained and have the 
education and background. Then further, we had access to the 
Indian Health Service and the mental health division there 
where clinical psychologists and psychiatrists were available.
    Mr. Tester may remember this. We incorporated the services 
of the Native Children's Trauma Center, which is at the 
University of Montana in Missoula. They came in and trained all 
staff that we had from our bus drivers to food service, to all 
of our teachers, to our administrators and board members as 
well so that we could recognize characteristics of children who 
are suffering.
    We have children where there is situational trauma they are 
going through but there is also historical trauma we are 
dealing with. It doesn't simply go away over time so we 
developed strategies that we could incorporate.
    I will tell you after we had a suicide incident, we put 
into place a crisis management plan the next day ready to pay 
for students who were going to be traumatized by this and very 
upset. We discovered there was a suicide pact and six 
individuals were ready to follow through with that. The system 
worked. All six were placed. They went to the Indian Health 
Service, they were placed in a facility in Grand Forks, North 
Dakota.
    All six are walking this earth today. I will tell you I 
believe it is because the plan actually worked. I will give 
credit where credit is due. We had people who were intervening, 
services that worked and the system worked that time.
    Senator Franken. I think we just need to do that both in 
Indian Country and nationwide. We need to really understand 
that about 1 in 5 children nationwide will experience a serious 
mental health issue in their lives and about 70 to 80 percent 
never get diagnosed or treated.
    That is where we can save a lot of pain for a lot of people 
and a lot of families, a lot of kids and as a country, do 
ourselves an enormous favor.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Franken.
    I will say from my perspective, I think the greatest 
opportunity we have in education is early childhood. The 
greatest challenge we face as a country is with mental health. 
This is a problem that is not going to go away. It will only be 
remediated if we are able to do the right thing at the State, 
Federal and local levels.
    I just want to say thank you all for your testimony. I 
appreciate it very much.
    Mr. Hudson? Make it as concise as possible.
    Mr. Hudson. One thing I would note in the Ethete and 
Fremont County areas, we have our grandparents of the students 
employed within the school district to address their needs. Not 
only are they out there basically as professionals but these 
are people they are related to and know and they can trust. 
Then they go on to the counselors.
    Secondly, as Mr. Gish pointed out in school construction, 
the current year, 2014, there is $17.6 million in impact aid 
out there for construction. That is about enough to build one 
400 student elementary school in the whole United States, just 
one. Consequently, I tend to think it is somewhat under funded.
    Thank you, Mr. Chairman.
    The Chairman. That is an understatement.
    Thank you all for your testimony. There will be questions 
we are going to have to submit. We can talk with this panel 
literally until summer. Thank you all very much for your 
perspective. Thank you for your testimony and thank you for 
your commitment to be here.
    With that we will bring up our second panel which consists 
of Mr. Bill Mendoza, Executive Director, White House Initiative 
on American Indian and Alaska Native Education, U.S. Department 
of Education.
    Mr. Mendoza, it is very good to have you here. I want to 
thank you for joining us today.
    As with the previous panel, I would ask that you try to 
keep your testimony to five minutes. Your entire written 
testimony will be made a part of the record. With that, 
welcome.
    We might do this as standard operating procedure. I 
appreciate your being willing to be on the second panel. One of 
the things I have found through my short tenure here is it 
gives me great perspective if I can hear what the folks on the 
ground are saying. I think as someone in the Administration, it 
can help you and everybody else too.
    Thank you for being here. You may proceed with your 
testimony.

 STATEMENT OF WILLIAM MENDOZA, EXECUTIVE DIRECTOR, WHITE HOUSE 
               INITIATIVE ON AMERICAN INDIAN AND 
          ALASKA NATIVE EDUCATION, U.S. DEPARTMENT OF 
                           EDUCATION

    Mr. Mendoza. Good afternoon, Chairman Tester, Ranking 
Member Barrasso and distinguished members of the Committee. 
Thank you for the opportunity to testify today.
    While I am here as the Executive Director of the White 
House Initiative on American Indian and Alaska Native 
Education, I am also an Oglala and Sicangu-Lakota product of 
public schools. I worked as a teacher and principal in public 
schools. My children attend public schools and have dedicated 
my professional life to improving and supporting the needs of 
all American Indians and Alaska Native Students.
    American Indian education is sometimes thought to mean 
education provided by Bureau of Indian Education funded 
schools. However, as every speaker has testified before you 
today, the reality is that the vast majority of Native 
students, 93 percent, attend public schools operated by their 
local school districts.
    These schools are located both on and off reservations and 
in urban centers. In many cases, there is coordination between 
local education and tribal communities. However, as we hear 
time and time again from tribal leaders and from educators, 
more often than not, these public schools exist without 
meaningful input from the tribal community.
    Absent this interaction, our public schools are less 
informed about culture and unique needs of our Indian students 
and Native students lack access to culturally approved 
curricula, educators with sufficient cultural training and 
adequate learning conditions. These challenges may act as 
barriers to quality of education and contribute to poor 
outcomes for Native students.
    Native students comprise just one percent of the overall 
student population. However, according to the Department's 
civil rights data collection, we know that Native students 
account for roughly seven percent of kindergarten students held 
back; two percent of school suspensions; and three percent of 
expulsions.
    In addition, males are suspended more than two times the 
rate of their peers and females are more than three times 
likely to be suspended as well. According to the National 
Center for Education statistics, Native students drop out at a 
rate nearly twice that of other students. They lag behind their 
peers in graduation rates and complete AP courses at a 
significantly lower rate than their peers.
    The NIES study report shows the achievement gap is widening 
in mathematics between Native students and their peers and 
reading scores remain stagnant.
    These figures are important because they paint a picture 
for the landscape of public education for our Native students. 
We must also be careful that we are drawing the proper 
conclusions. We need to dig deeper to better understand why 
these disparities exist so that we can put in place meaningful 
support that will improve outcomes for all students attending 
our public schools.
    The Department of Education provides support to these 
students in a variety of ways. There are large dollar programs 
such as Title I and impact aid that direct funds to communities 
with high concentrations of low-income students as well as 
communities affected by Federal activities.
    In addition, the department administers several formula 
grants and discretionary competitive grants designed to support 
the unique cultural and language needs of Native students, 
increase the number of American Indian and Alaska Native 
teachers, school administrators and other school officials and 
build capacity of tribal education agencies in partnership with 
State educational agencies and to support the unique needs of 
Alaska Natives and their communities.
    Early in the Administration, President Obama demonstrated a 
deep commitment to Native students and the tribal community by 
issuing a memorandum instructing agency heads to engage in 
regular meaningful consultation with tribes. In 2011, he signed 
an executive order further signaling his commitment to improve 
educational outcomes cradle to career for American Indians and 
Alaska Natives.
    Secretary Duncan has also shown unwavering commitment to 
these students. He has visited numerous reservations and tribal 
communities, held roundtable discussions and participated in 
consultation and commencements.
    One of the consistent themes expressed by tribes and tribal 
communities has been the lack of opportunities for them to 
engage meaningfully in the education of their children. The 
department understands the best solutions for Native students 
come from those who these students the best, the tribes.
    As a direct result, in 2012, we launched a pilot program, 
the State Tribal Education Partnership Program. We plan to 
continue this first of a kind effort in order to further 
respond to the tribal community. My office, the White House 
Initiative on American Indian and Alaska Native Education is 
actively engaged in these issues and includes the President's 
Interagency Working Group on Indian Education, the DOI 
Education Joint Committee on Indian Education and the National 
Advisory Council on Indian Education.
    I have expounded on this work in my written testimony and 
would be happy to discuss this in more detail in the question 
and answer portion.
    Chairman Tester and members of the Committee, thank you for 
the opportunity to testify today.
    [The prepared statement of Mr. Mendoza follows:]

Prepared Statement of William Mendoza, Executive Director, White House 
    Initiative on American Indian and Alaska Native Education, U.S. 
                        Department of Education
    Good afternoon, Chairman Tester, Ranking Member Barrasso, and 
distinguished Members of the Committee. Thank you for the opportunity 
to testify today about the status of the American Indian and Alaska 
Native (AI/AN) students in our public schools.
AI/AN Student Profile
    American Indian education is sometimes thought to mean the schools 
operated by the Bureau of Indian Education (BIE) or by Indian tribes or 
tribal organizations. However, the reality is that the vast majority of 
AI/AN students--approximately 93 percent--attend public schools 
operated by their local school districts. These schools are located 
both on and off reservations and tribal lands.
    In some cases, there is coordination between the local education 
agency (LEA) and the tribal community. However, more often than not, 
these public schools exist without meaningful input from the tribal 
community. Absent this interaction, our public schools are less 
informed about the culture and unique needs of our Indian students. AI/
AN students lack access to culturally appropriate curricula, educators 
with sufficient cultural training, and sometimes adequate learning 
conditions. These challenges may act as barriers to a quality education 
and contribute to poor outcomes for AI/AN students.
    We know the earlier we start providing educational opportunities to 
our students, the more successful they will be as adults. The best 
investment we can make is to provide our children with a strong start 
and foundation for learning.
    The Department of Education recently released the Civil Rights Data 
Collection (CRDC) for 2010-2011. This is the first time since 2001 that 
we have data from nearly every public school in the country that tells 
us about specific subpopulations including AI/AN students. While we 
know that AI/AN students comprise about one percent of the overall 
population, according to the CRDC report about seven percent of the 
140,000 kindergarten students held back were AI/AN students. These AI/
AN kindergartners are held back at nearly twice the rate of white 
children. Further, states like Oregon, Wyoming, Montana and Arizona 
with high American Indian populations are among the States with the 
lowest percentage of school districts operating pre-school programs.
    The CRDC report also collected data on school discipline. 
Similarly, AI/AN students represent a disproportionate share of 
disciplinary action as they are less than one percent of the student 
population but account for two percent of out-of-school suspensions and 
three percent of expulsions. AI/AN males are suspended at more than two 
times the rate of their white peers with, on average, six percent of 
white male students being suspended compared to approximately 13 
percent of AI/AN males. Young AI/AN females are more than three times 
more likely to be suspended from school as their white counterparts, 
with, on average, two percent of white females students being suspended 
from school as compared to approximately seven percent for AI/AN female 
students.
    Each day that our students are not in the classroom they are 
missing out on valuable instruction time.
    One of the most important factors in raising student achievement is 
an effective teacher. While there certainly are effective first year 
teachers, research shows that teachers on average increase their 
effectiveness over their first few years of teaching. It is interesting 
to note that the CRDC report found disparities in access to experienced 
teachers for AI/AN students. The data shows AI/AN students attend 
schools with higher concentrations of first-year teachers at a higher 
rate than white students. Specifically, approximately four percent of 
AI/AN students attend schools where more than 20 percent of teachers 
are in their first year of teaching, compared to one percent of white 
students.
    We also know AI/AN students are less prepared for college and 
career. Looking at the high school graduation rates and drop-out rates 
for 2011, we see AI/AN students dropout at a rate that is nearly twice 
that of all students. In fact, AI/AN students account for the highest 
dropout rate of any racial or ethnic population. And AI/AN students are 
lagging in increasing their graduation rates. The average graduation 
rate for all students increased six points, from approximately 75 
percent in 2007-2008 to 81 percent in 2011-2012. Yet, over this period 
the graduation rate for AI/AN students increased just four points, from 
approximately 64 to 68 percent.
    But graduating isn't always enough. We must ensure AI/AN students 
are taking rigorous coursework to be best prepared for today's economy. 
In 2009, only about 20 percent of the AI/AN graduates completed an 
Advanced Placement course. This is extremely low when we consider the 
comparable approximate figures for Asian/Pacific Islander (66 percent), 
White (37 percent), Black (22 percent) and Hispanic (34 percent) 
graduates.
    And even fewer AI/AN high school graduates (approximately 18 
percent) have completed an analysis or pre-calculus course compared to 
the average for all students (approximately 35 percent). We also see 
drastic differences in the completion of courses in chemistry or 
physics compared to the averages for all students (approximately 70 
percent and 36 percent, respectively).
    In 2011, the National Indian Education Study (NIES) reported the 
results of the mathematic and reading achievement levels of fourth- and 
eighth- grade AI/AN AI/AN students, using a nationally representative 
sample.
    The math assessment showed that AI/AN fourth-grade students scored 
approximately 16 points lower on average than non-AI/AN students in 
math. AI/AN eighth-grade students scored approximately 19 points lower 
on average in math than non-AI/AN students. This represents and even 
wider gap compared to the 2005 NIES scores that showed a gap of 
approximately 12 points for fourth-graders and 15 points for eight-
graders. And while there are no significant changes in average reading 
scores for AI/AN students compared to 2005, overall gaps separating AI/
AN students from their white peers have mostly widened.
    For those in poverty, the difference is even starker. Using the 
National School Lunch Program (NSLP) as an indicator of family income, 
we know that in 2011, AI/AN eighth-grade students who were eligible for 
NSLP had average reading scores approximately 20 points lower, on 
average, than AI/AN eight-grade students who were not eligible for 
NSLP.
Department Programs that Support AI/AN Students
    The Department administers a variety of formula grants as well as 
competitive grants to support AI/AN students.
    Impact Aid is a formula grant program under section 8003 (Basic 
Support Payments) of the Elementary and Secondary Education Act (ESEA) 
that provides direct funding to school districts that are affected by 
federal activities. The Basic Support Payments program was funded at 
$1.2 billion for FY 2014 and approximately one-half of those funds will 
be distributed to districts that provide free public education to 
children living on Indian lands.
    Title VII, Part A provides formula grant funds to over 
approximately 1,300 districts that educate AI/AN students. The funds 
must be used for supplementary services to meet the needs of those 
students, including their language and cultural needs, to help them 
succeed in school. In addition, Title VII, Part A also authorizes 
several discretionary programs designed to improve the quality of 
education for Indian students and to prepare and train Indians to serve 
as teachers and school administrators. Funds are awarded competitively 
and currently support the following programs: Demonstration Grants 
(Section 7121); Professional Development Grants (Section 7122); and the 
State Tribal Education Partnership (STEP) (Section 7131).
    Demonstration grants provide support in such areas as innovative 
programs, remedial instruction, bilingual and bicultural programs, 
guidance and counseling, early childhood and kindergarten programs, 
secondary-to-postsecondary education transition programs, school-to-
work programs, and family literacy services.
    Professional Development grants support increasing of the number of 
American Indians qualified in teaching, school administration, and 
other education professions, and improving the skills of those 
individuals. Individuals receiving training under this program are 
required to secure employment in a field related to their education and 
benefiting Indians. If they do not meet this requirement, they must pay 
back the amount of the assistance. Awards focus on pre-service teacher 
and pre-service administrator training.
    The Alaska Native Education (ANE) program supports activities that 
provide educational opportunities that are culturally relevant and 
beneficial to Alaska Native Students and the community. In 2012-2013, 
there were 57 active ANE grants for a total investment of just over $31 
million.
    The Department understands the best solutions for AI/AN students 
come from those that know these students best, the tribes. We remain 
committed to strengthening and advancing our relations with Indian 
tribes.
    In 2009 President Obama issued a Memorandum to the heads of 
executive departments and agencies emphasizing his commitment to 
regular and meaningful consultation and collaboration with tribal 
officials in policy decisions that have tribal implications. The 
memorandum called for complete and consistent implementation of 
Executive Order 13175. It also directed each agency to submit a 
detailed plan of action that the agency will take to implement the 
policies and directives of E.O. 13175.
    The Department was quick to respond to the Memorandum. In 2010, the 
Department conducted six tribal consultations with tribal leaders and 
Indian educators. We held consultations in New Mexico, South Dakota, 
Oklahoma, Alaska, Arizona, and Washington and learned much from the 
discussion. As a result, we issues a report in November 2011 titled 
``Tribal Leaders Speak: The State of Indian Education.''
    We continue to have regular consultation with these leaders and 
have held additional consultations in Denver, Green Bay, Stockton, Los 
Angeles, Seattle, Chicago, Troy, Anchorage, Scottsdale, Niagara, and 
Smith River. This year the Department, in partnership with the National 
Indian Education Association and The United and Southeastern Tribes, 
held the first consultation of 2014. We have three more consultations 
scheduled for later this year in Oklahoma, Montana and North Dakota.
    One of the consistent themes expressed during these consultations 
has been the lack of opportunities for tribes to meaningfully 
participate in the education of their own children. In response, the 
Obama Administration proposed, in our ESEA reauthorization blueprint, 
to elevate the role of tribal education agencies (TEAs).
    Additionally, the FY 2012 appropriation provided funding for the 
Department to create a pilot competition designed to increase the role 
of the TEA in meeting the education needs of students attending public 
schools on the tribe's reservation. The State Tribal Education Program 
(STEP) is the result of this effort. The STEP program aims to promote 
collaboration between TEAs and state educational agencies (SEAs). The 
program is also intended to build the capacity of tribes as they 
develop and enhance their roles, responsibilities and accountability in 
Indian education.
    The pilot program funded projects created through cooperative 
agreements between TEAs and SEAs that allow the TEAs to perform some 
state-level functions for certain Federal grant programs funded through 
ESEA, specific to public schools located on tribally controlled lands.
    In 2013, Secretary Duncan and Secretary of the Interior Jewell 
traveled to Wyoming for a series of events to highlight the importance 
of education that included a roundtable discussion with local tribal 
leaders and two school visits. During this trip the Secretaries engaged 
with state and tribal representatives as well as youth from the Eastern 
Shoshone and Northern Arapaho tribes.
    I am proud to inform you that the Secretary has visited 
reservations and tribal communities in Montana, Alaska, South Dakota, 
New Mexico, Wisconsin, Wyoming and Arizona. These visits have allowed 
him to witness first-hand the problems that Indian country faces. His 
visits have included roundtable discussions as well as commencement 
addresses at Sinte Gleske University, Navajo Technical University and 
College of Menominee Nation. This year he will be the commencement 
speaker at Salish Kootenai College in Montana. The Secretary welcomes 
these opportunities to learn more about the unique challenges facing 
AI/AN students and to highlight the important role tribal colleges and 
universities play in providing access to higher education for the 
community. He understands the vital role tribal colleges and 
universities (TCUs) play in language and cultural preservation.
    The White House Initiative on American Indian and Alaska Native 
Education (Initiative), housed at the Department of Education, has 
responsibility to carry out the President's Executive Order 13592, 
signed December 2, 2011. The Initiative seeks to support activities 
that will strengthen the Nation by expanding educational outcome 
opportunities and improving educational outcomes for all AI/AN 
students. The Initiative is also committed to furthering tribal self-
determination and we work to ensure AI/AN students, at all levels of 
education, have an opportunity to learn their Native languages and 
histories as well as receive complete and competitive educations that 
prepare them for college, and careers so they may lead productive and 
satisfying lives.
    In order to meet the goals of the Executive Order the Initiative is 
actively engaged in three major activities; the ED Joint Committee on 
Indian Education, The President's Interagency Working Group on Indian 
Education and the Native Languages Working Group.
    The Initiative formed a DOI-ED joint Committee on Indian Education 
(Committee), which includes tribal leader representatives from the 
Tribal Education Budget Council. The Committee was formed as a result 
of a 2012 ED-DOI Memorandum of Understanding (MOU). The MOU leverages 
the expertise of both departments to improve educational opportunities 
and outcomes for AI/AN students. The Committee has started working on 
developing plans to implement seven specific goals and activities that 
are outlined in the MOU.
    The President's Interagency Working Group on Indian Education (IWG) 
was established in the E.O. 13592. The IWG held its inaugural meeting 
in 2013. Senior Administration Officials from 29 agencies came together 
to begin interagency implementation of the E.O. The departments will 
work to develop four year plans that will focus on expanding 
educational opportunities and improving outcomes for AI/AN students 
including helping ensure the opportunity to learn their Native 
language.
    The Native Language Working Group resulted from a Memorandum of 
Agreement between the Department of Education, U.S. Department of 
Health and Human Services Administration for Children and Families and 
the Department of Interior Bureau of Indian Education. We are working 
to achieve the goals of the Agreement (MOA) on Native Languages. In 
addition to developing a course of action, the MOA provides a framework 
for collaboration and coordination across Federal agencies to help 
preserve and revitalize native languages.
    The Native Language Workgroup is planning a Native American 
Languages Summit; Working Together for Native American Language Success 
for June, 2014. During this conference, Federal partners and 
organizations with Native Language programs will come together to 
discuss methods for measuring success. The goal is to work together as 
a team to ensure the preservation and acquisition of Native languages 
so that they may not only be revitalized but that Native youth have a 
command of the language from a linguistic and cultural perspective.
    The Department of Education has taken significant steps to promote 
the preservation and revitalization of native languages including the 
following:

  <bullet> The Office of Postsecondary Education (OPE) has included an 
        Invitational Priority to support activities that strengthen 
        Native language preservation and revitalization in institutions 
        of higher education in the Title III Alaska Native and Native 
        Hawaiian-Serving Institutions grant competition in FY 2014.

  <bullet> The Office of Indian Education (OIE) has made several 
        important changes to the application for Title VII formula 
        grants for FY 2014 in order to emphasize the statutory 
        requirement that grant funds be used as part of a comprehensive 
        program for meeting the culturally-related academic needs of 
        Indian students, including the language and cultural needs of 
        the children. In 2013, there were approximately 1,300 Title VII 
        programs and 500,000 students served nationwide.

  <bullet> In 2013, the South Central Comprehensive Center (SC3), one 
        of three ED Regional Comprehensive Centers, supported the 
        Oklahoma State Department of Education (OSDE) in the 
        development of the native language certification and is 
        continuing to provide technical assistance during statewide 
        implementation of an alternate pathway in native language 
        certification. This work addresses the critical need for fluent 
        native language instructors in efforts to enhance native 
        language revitalization among the 39 Oklahoma tribes.

    Through dedicated funding including ED's Strengthening Institutions 
Program and Title III grants, several tribal colleges have implemented 
native language activities as part of their curricula. For example, 
Cheyenne language courses are currently being offered at Chief Dull 
Knife College in a four course series and the college also provides 
summer Cheyenne language immersion experiences for youth in the 
surrounding communities; Fort Berthold Community College, a tribal 
college of the Three Affiliated Tribes, has started a project that will 
provide linguistic training to tribal members in technologically 
advanced methods of linguistic data collection and analysis aimed at 
preventing the loss of the highly endangered Mandan language; and the 
Blackfeet Language Studies curriculum at Blackfeet Community College is 
designed to promote language fluency in accordance with Blackfeet 
Language standards, which are equivalent to national standards for 
language acquisition.
    The Department of Education continues to hold consultations with 
tribal leaders on ways the Department can help address the need to 
preserve, protect, and promote the rights and freedom of Native 
Americans to use, practice, and develop native languages.
    In addition, the U.S. Department of Justice and the U.S. Department 
of Education have collaborated to ensure that AI/AN students who are 
not proficient in English are appropriately identified as English 
Learners (ELs) and offered language support services until they achieve 
proficiency in English. Toward this end, the Departments reached two 
settlement agreements with the State of Arizona regarding its Home 
Language Survey (3/25/11) and its process for testing ELs (8/31/12). In 
February of this year, the Department of Justice also reached a 
settlement agreement with a school district in Arizona to ensure its 
Navajo-speaking ELs receive appropriate EL services with teachers who 
are trained to provide those services.
    The National Advisory Council on Indian Education (NACIE) also 
plays a vital role in how we address the unique needs of AI/AN 
students. NACIE is comprised of fifteen American Indians (including 
Alaska Native) that are appointed by the President. NACIE advises the 
Secretary on the funding and administration of any program, including 
those established under Title VII, Part A of the ESEA, with respect to 
which the Secretary has jurisdiction and that includes Indian children 
or adults as participants or that may benefit Indian children or 
adults. NACIE annually submits a report to the Congress on the 
activities of the Council which may include any recommendation the 
Council considers appropriate for the improvement of Federal education 
programs that include or may benefit Indian children or adults as 
participants. *
---------------------------------------------------------------------------
    * A copy of the NACIE Annual Report to Congress 2012-2013 has been 
retained in the Committee files.
---------------------------------------------------------------------------
    Moving forward, the President has requested funding for vital new 
programs, such as Race to the Top Equity and Opportunity, a new College 
Success Grants for Minority-Serving Institutions Initiative, First in 
the World (FITW) funds focused on institutional innovation, and 
additional existing programs that are critical to addressing the needs 
of many AI/AN students.
    The Department remains committed to better understanding the needs 
of AI/AN students and to our responsibility to help improve the 
educational outcomes for all AI/AN students. Thank you for the 
opportunity to testify today and I happy to respond to any questions.

    The Chairman. Thank you for your testimony.
    They have called a roll call vote on the floor so I am 
going to make my questions short. You make your answers short. 
I doubt anyone is coming back because there are multiple votes.
    The White House Initiative on American Indian and Alaska 
Native Education has been in existence for about three years. 
How are you measuring the progress and success of the work of 
that program?
    Mr. Mendoza. My measurement of the progress of this 
initiative centers around how we are changing the context 
within the Federal family of how we look at American Indian and 
Alaska Native education. As we have come into what amounts to a 
paradigm shift in approaching this issue, we are looking at 
closing the gaps between how the Federal Government, States and 
tribes are working together.
    To that end, we are engaged in a number of activities that 
directly effect how the Federal Government operates in terms of 
how we utilize grants, contracts, services, loans and so forth 
to affect Indian communities. We work directly from the lens of 
self-determination and self governance for tribes. I would be 
happy to expand on some of those specific mechanisms that I 
mentioned in my remarks.
    The Chairman. I would like you to, in written form if you 
may, cite me some of your most significant achievements with 
this program to date. I would love to see those so we could 
potentially utilize them.
    In the Department's appropriation for 2012, funds were 
included for a pilot program known as State Tribal Education 
Partnership, STEP. Can you tell us how the implementation of 
this pilot program is going?
    Mr. Mendoza. The implementation of this program is 
proceeding in a way we feel is dramatically changing the way 
States and tribes are working together. In areas of the country 
like Oklahoma, New Mexico and Idaho, we see a tremendous amount 
of effort being put into formal collaborations between these 
entities that are getting at the root causes of some of these 
issues where we are dealing with culturally responsiveness, the 
teaching field and looking at how we are supporting the 
capacity building of tribal education agencies in some of the 
critical formula programs.
    We couldn't be happier with how these tribal education 
agencies are growing through these programs and how we can move 
forward in strengthening the program.
    The Chairman. Very good.
    I am going to put some additional questions to you in 
writing. You heard the testimony of the previous folks. If 
there are things they said that are applicable to the 
department and the department would like to respond, I would 
love to hear your response.
    There are some programs out there that I think have real 
merit and I think we might be able to take them more than just 
regional and more than just single school districts.
    Thank you, Mr. Mendoza. I appreciate your testimony. I am 
sorry we have this vote right now but sometimes we have to do 
that.
    I want to thank all the witnesses for their testimony 
today. This Committee will continue to work on these issues and 
work on legislation to make productive changes. As I said in my 
opening, I am a big believer in education. I think it is one of 
the keys to getting people raised up in the economic strata and 
how we build our economy. Indian Country and Indian education 
is incredibly important in all of this.
    The hearing record will remain open for two weeks.
    With that, the hearing is adjourned.
    [Whereupon, at 3:43 p.m., the Committee was adjourned.]
                            A P P E N D I X

    Prepared Statement of the National Indian Education Association
    Tribal leaders and Native advocates have consistently listed 
education as a top priority for our communities. The National Indian 
Education Association (NIEA) is excited that the Senate Committee on 
Indian Affairs has heard the collective call for reform and is working 
to highlight the condition of Native education and find solutions to 
persisting problems. As NIEA and Native education stakeholders have 
stated for years, a strong education foundation is critical to the 
future of tribal nations and Native communities. To provide 
recommendations for strengthening that foundation and as this Committee 
works with Congress and the Administration, we request this written 
testimony and supplemental documents be submitted into the record.
    NIEA was incorporated in 1970 and is the most representative Native 
education organization in the United States. NIEA's mission is to 
advance comprehensive and equal educational opportunities for American 
Indian, Alaska Native, and Native Hawaiian students. NIEA supports 
tribal sovereignty over education as well as strengthening traditional 
Native cultures and values that enable Native learners to become 
contributing members of their communities. As the most inclusive Native 
education organization, NIEA membership consists of tribal leaders, 
educators, students, researchers, and education stakeholders from all 
50 states. From communities in Hawaii, to tribal reservations across 
the continental U.S., to villages in Alaska and urban communities in 
major cities, NIEA has the most reach of any Native education 
organization in the country.
The State of Native Education
    Native education is currently in a state of emergency. Native 
students lag behind their peers on every educational indicator, from 
academic achievement to high school and college graduation rates. Just 
over 50 percent of Native students are graduating high school, compared 
to nearly 80 percent for the majority population nationally. Further, 
only one in four Native high school graduates who took the ACT scored 
at the college-ready level in math and only one-third in reading 
comprehension, as compared to more than half for white graduates. 
Increasingly alarming, only 40 percent of Native college enrollees in 
2004 actually graduated college with a bachelor's degree by 2010. 
Nearly 62 percent of the majority students graduated. For Native 
students to succeed in college and careers, they must have a strong 
education foundation that also meets their local needs and strengthens 
their linguistic and cultural identity.
Native Student Demographics \1\

    \1\ National Center for Education Statistics, Institute of 
Education Sciences, United States Department of Education.National 
Indian EducationStudy 2011.(NCES 2012-466). http://nces.ed.gov/
nationsreportcard/nies/
---------------------------------------------------------------------------
  <bullet> 378,000, or 93 percent of Native students, attend U.S. 
        public schools, comprising 0.7 percent of the total public 
        school population (2010-2011 school year).

  <bullet> Of all Native students, 33 percent live in poverty, compared 
        to 12 percent of Whites (2011-2012 school year).

  <bullet> 29 percent of these students attend high-poverty city public 
        schools, compared to 6 percent of Whites (2009-10 school year).

  <bullet> Only 52 percent of Native students live in two-parent 
        households, compared to 75 percent of Whites (2011).

  <bullet> After the most recent census, only 65,356 Natives ages 25 
        years and older had a graduate or professional degree.

Public Education Recommendations
    NIEA's work over more than forty years has centered on reversing 
these negative trends to ensure our communities have the future leaders 
they need to thrive and sustain local cultural and linguistic 
traditions. The following public education recommendations are based on 
resolutions passed by our membership as well as past policy work and 
community outreach regarding needed regulatory and legislative reform.
I. Equitably Fund Native-Serving Schools
    Tribes and Native communities have a tremendous stake in an 
improved public education system. With 93 percent of Native students 
attending traditional public schools, education should prepare Native 
students not only for active and equal participation in the global 
market, but also to be positive, involved members and leaders of their 
communities. To support that participation, the federal government must 
uphold its trust relationship with tribes. Established through 
treaties, federal law, and U.S. Supreme Court decisions, this 
relationship includes a fiduciary obligation to provide parity in 
access and equal resources to all American Indian and Alaska Native 
students, whether they attend Bureau of Indian Education (BIE), 
charter, or public schools.
    As tribes work with Congress to increase their role and 
responsibility in administering education, federal support should 
increase for tribal governments and Native education institutions to 
repair the damage caused by shrinking budgets and sequestration. 
Historical funding trends illustrate that the federal government is 
abandoning its trust responsibility by decreasing federal funds to 
Native-serving programs by more than half in the last 30 years.
    Fortunately, Congress postponed sequestration for two years and 
increased funds to many programs. However, Congress and the 
Administration maintained FY 2013 sequestration levels in FY 2014 for 
Native education funding in Title VII--the Native education title under 
the Elementary and Secondary Education Act (ESEA). This action is 
incomprehensible and unacceptable. Now is the time to invest in Native 
education by strengthening the ability of tribes to participate in 
education as well as provide adequate funds to schools serving Native 
students. Tribal governance of education services is crucial as well as 
increasing collaboration and engagement among key stakeholders and 
decreasing barriers that inhibit tribes from equally participating in 
education.
II. Strengthen Tribal Self-Determination
    Congress should assist tribes who wish to participate in the 
delivery of their children's education by strengthening tribal 
education agencies. Since the late 20th Century, Congress has worked to 
strengthen tribal capacity to directly serve their citizens. In this 
spirit, tribes should have the same ability as state and local 
education agencies to administer education services because many 
Native-serving public schools are located on or just outside tribal 
lands. In FY 2012, Congress funded an authorization under the 
Department of Education (ED) for tribal capacity building in public 
reservation schools under the State-Tribal Education Partnership (STEP) 
program. STEP was not only a good first step to increase cooperation 
and collaboration among states, tribes, and local schools, it succeeded 
in increasing, albeit it in a limited way, the capacity of tribes to 
administer education programs.
    True tribal self-determination without the state acting as an 
intermediary in education should be afforded. All tribes who wish to 
participate should have the authority and funding to build their 
capacity to administer education programs. Native leaders understand 
their children best and Native communities can better address a child's 
unique educational and cultural needs. Providing tribes the ability to 
administer education programs would ensure that tribes have the same 
ability as state education and local education agencies. The ESEA 
should authorize tribes to operate title programs in public schools 
located on tribal lands and that serve Native students. ED would then 
work with tribes to identify appropriate title programs for 
administration allowing tribes the opportunity to partner with their 
particular local education agency for effective implementation.
III. Expand Collaboration and Engagement
    Since Native students often transfer between their local schools, 
there must be collaboration among federal, state, and tribal 
governments, as well as between tribes and their local schools, to 
ensure the academic and cultural needs of Native students are 
addressed. While the federal government has a trust responsibility to 
work with tribes, tribal concerns are often excluded at the state and 
local level. Local education agencies and their schools should partner 
closely and consult with tribes when developing programs that serve 
Native students. Further, local schools should work with tribes to 
develop school calendars that account for cultural events, local 
outreach that successfully engages parents, and professional 
development and/or technical assistance training that includes cultural 
and linguistic traditions.
    Native parents must be involved in Native-serving public schools to 
provide their children familial support. Otherwise, local work to 
increase the success of Native students will fail. Parents and family 
members must feel comfortable in their child's school environment. 
Schools should ensure parents understand how to navigate the school's 
administrative and educational structure, so parents understand the 
appropriate support needed at home in order to complement their child's 
learning in school.
    Congress should also ensure public schools engage their local 
tribes to make sure a network of care provides parents additional 
services, such as health and wellness and behavioral supports, where 
needed. Unfortunately, Native-serving schools often work in a vacuum or 
hire non-Native staff unaware of their local population's needs. These 
attributes are not conducive for creating stability for Native parents 
and communities who rely on local relationships built on a foundation 
of trust. Tribes and Native communities should have the ability to work 
with their local public schools to ensure Native parents feel 
comfortable engaging teachers and administrators. This begins by 
increasing tribal access to work with school administrators and 
teachers so school staff understand the significance of a holistic 
education rooted in the local Native culture and language.
    Native languages are not only crucial for protecting and 
strengthening Native culture and increasing family engagement, a 
curriculum steeped in linguistic tradition also raises student 
achievement by helping the child learn in a familiar environment. To 
support such initiatives, this Committee should move Senate Bill 1948--
the Native Language Immersion Student Achievement Act--so that eligible 
schools may participate in a grant program that provides new funds to 
develop and maintain Native language programs. Immersion programs 
increase Native student success rates by providing a well-rounded 
education that includes mathematic and language arts, while also 
strengthening Native traditions. Further, sustainable funding for 
immersion programs would generate data to help education stakeholders 
create best practice models for educating Native students.
IV. Reduce Inequitable Regulation
    Increasing self-determination for tribes to administer services and 
work with local stakeholders will not succeed unless there are fewer 
restrictions on tribes to engage their public schools. Native students 
often transfer between public, charter, and BIE schools that serve 
their community. This constant mobility creates information gaps, as 
systems are not required to track and coordinate student data when 
students transfer.
    Provided the same access as local education agencies, tribes and 
their education agencies can better track and measure their student 
populations when provided parity in access. With a more complete 
database, tribes can utilize and create data pools where information is 
deficient. Unfortunately, the Family Educational Rights and Privacy Act 
(FERPA) exclude tribes from equitably accessing their Native student's 
records. Amending FERPA to provide basic parity for tribes to access 
data would create accurate student statistics that help create more 
effective models for addressing issues that decrease Native student 
achievement rates.
    Likewise, Native-serving programs in public schools must not be 
restrictive due to agency implementation. Rather, they must function as 
Congress originally intended. Title VII administered by ED provides 
supplemental grants to ensure programs serving Native students meet 
basic elementary and secondary educational needs as well as address the 
unique culturally-related academic needs of Native children. Citing the 
Government Performance and Results Act (GPRA), the Office of Indian 
Education within ED utilizes systems that measure Native student 
academic achievement as the benchmark for Title VII programmatic 
success.
    This measurement system functions contrary to congressional intent 
for Title VII. Under the current iteration of ESEA, the law stipulates 
that Title VII formula grant programmatic success is based on 
supporting cultural education and creating a presence for Native 
education. This cultural presence creates a unique focus in a school 
district or school in order to work in concert with ESEA, rather than 
directly increasing the academic achievement of Native students. 
Congress should ensure that eligible entities receiving Title VII funds 
have the ability to serve Native students as law stipulates--not as ED 
interprets. Providing this oversight will ensure restrictive barriers 
are diminished in Native-serving schools and that more appropriate 
evaluation tools are utilized to measure an important Native-serving 
program.
V. Elevate the National Advisory Council on Indian Education
    The Federal Government must recognize and support tribal self-
determination in education as well as entities that represent and work 
to improve Native education. For too long, ED, the Administration, and 
Congress have ignored the annual reports of the National Advisory 
Council on Indian Education (NACIE). As the body that works to advise 
the Secretary of Education on Native issues, NACIE must be elevated.
    We request this Committee work to provide oversight to ED, so that 
NACIE has the opportunity to annually meet with the Secretary as well 
as the President. Further, their annual reports to Congress seldom 
receive response and issues continue to persist from year to year 
without being addressed. We call on this Committee to ensure Congress 
provides a response to their report and work with the White House 
Initiative on American Indian and Alaska Native Education and the 
Office of Indian Education within ED to ensure the Secretary responds 
to the annual NACIE report. In this vein, NIEA supports and includes 
the 2013 NACIE Report into the record in hopes of raising awareness of 
their issues.
Conclusion
    We also include the 112th Congressional legislation, the Native 
Culture Language, and Access for Success in Schools (CLASS) Act--Senate 
Bill 1262, as an addendum. * This comprehensive bill included Native 
stakeholder's requests for needed legislative reform under the 
Elementary and Secondary Education Act, so that Native students and 
tribes have increased parity to participate in Native-serving education 
systems, such as public schools. Because the Senate's ESEA 
reauthorization--the Strengthening America's Schools Act of 2013--
passed out of the Senate Health, Education, Labor and Pensions (HELP) 
Committee, we recommend this Committee work to include CLASS Act 
technical amendments in the chance the ESEA bill moves to the Senate 
floor for consideration.
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    NIEA appreciates the continued support of this Committee and we 
look forward to working closely with its members under the leadership 
of Chairman Tester and Ranking Member Barrasso. We share your 
commitment to Native education and strengthening our partnership to 
ensure Native-serving public schools are as effective as possible. To 
achieve this, there must be collaboration among all entities that touch 
a child's life and at all levels--tribal, federal, state, and local. It 
is difficult to speak of increasing the success of Native students when 
addressing only one part of the education system, so we must work with 
all systems since our students frequently move between schools during 
their scholastic career. While this hearing focused on public schools, 
NIEA is happy to see the Committee highlight the need for parity in all 
systems serving our children. Only by working with all stakeholders 
will we increase our students' preparedness for success no matter where 
they learn.
    Once again, thank you for this opportunity.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Brent D. Gish
    Question. What standards and best practices exist for public 
schools to assess highly qualified teachers of Native languages and 
culture so that Alaska Native/American Indian pupils (indeed all 
students) may learn of and in Native language and culture?
    Answer. A growing number of states are now recognizing the value 
and need to imbed Native language and culture into diverse classroom 
settings to provide cultural relevance and to support Native language 
preservation. It has been a great challenge to identify and recruit 
highly qualified Native language and culture teachers. Very few college 
programs offer licensure in Native languages and the demand far exceeds 
availability. States have relied on tribes to identify, assess 
competency, and recommend licensing. Through Memorandums of 
Understanding (MOU), the state then grants a license to teach in the 
language specialty area.
    In addition to a shortage of highly qualified teachers, there 
exists a shortage of Native language curriculum, learning materials and 
support policies, ie accepting Native language and culture course work 
for graduation credit. It is acknowledged that this area of high need 
is being addressed by tribal education departments, tribal colleges, 
state and private universities, and for profit companies but there is a 
backlog of need for quality materials that fit under the umbrella of 
``common core standards''.
    Currently there is limited research and proven practice in the area 
of Native language and culture, the principles of quality instruction 
apply to this unique discipline as it does for all other disciplines. 
It is my belief that the teachers of Native language and culture who 
are licensed by tribes would benefit greatly by enrolling in courses 
that address proven practices in pedagogy ie, behavior management, 
differentiated instruction, assessment, data analysis, etc. Further, I 
highly support and encourage Congress/SCIA to support tribes, states 
and local school districts in their quest for high performing schools 
where all students are valued as demonstrated by the teaching of Native 
language and practicing cultural relevance for all learners.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Daniel Hudson
    Question. What standards and best practices exist for public 
schools to assess highly qualified teachers of Native languages and 
culture so that Alaska Native/American Indian pupils (indeed all 
students) may learn of and in Native language and culture?
    Answer. First, teachers of Native language and culture may very 
well not fit the Elementary and Secondary Education Act (ESEA) 
definition of ``highly qualified''. These instructors, at least in the 
states of Wyoming, Montana, New Mexico and Arizona, are initially 
licensed and renewed for classroom instruction by each state, but 
required competency for such licensure is determined by their 
individual Tribe. (See Appendix A for these documents.) * Regarding 
renewal, Montana and Arizona require sixty hours of additional 
instructor work during the license periods, for license renewal; the 
other two States noted do not, to the best of my knowledge, require 
additional training for license renewal.
---------------------------------------------------------------------------
    * The information reffered to has been retained in Committee 
files.x
---------------------------------------------------------------------------
    It should be noted that this does not necessarily imply a 
diminished instructional person as regards the ``highly qualified'' 
term vis-a-vis Native language and culture instructors. Usually an 
instructor has to have a minimum of a Bachelor's degree in their 
teaching area and today, pass the Praxis test in their subject area to 
confirm competence. For a Native language and culture instructor, there 
simply does not exist coursework or indeed professors at the collegiate 
level for them to attain a college-conferred Bachelor's degree in, say, 
Arapaho language and culture, let alone the Praxis test to confirm 
competency in that instructional area (One might contrast this to a 
college degree for Spanish language instruction, which is indeed 
available and instructional competency is capable of being tested.) 
Thus coursework competency in Native language and culture is and 
currently has to be determined by each instructors' Tribal 
certification mechanism.
    Past the point of initial competency, then, which has to be 
verified by the Native Tribe and their respective competency 
requirements, other assessments of classroom teachers can certainly be 
applied to Native language and culture instructors in the same manner 
as other subject areas. Such things as classroom management, student 
involvement in the course material, presentation of course material, 
and so on can be assessed as for any other instructor. It might be 
noted that currently these assessments are performed with a school 
district level selected assessment mechanism, and the yearly number of 
such assessments is determined by each individual state. Wyoming, for 
example, requires teachers to be formally assessed not less than twice 
a year for the first three years of their employment, while such 
teachers are not tenured. After tenure has been granted, formal 
assessment is then required not less than once a year. Logically, 
assessments could be performed more often than these standards for all 
certified instructors (teachers) including Native language and culture 
instructors, and frankly, best practice would indicate more frequent 
informal assessments can be provided during the first few years of an 
instructor's employment with the intent to provide assistance and 
guidance to a beginning teacher; this would also include Native 
language and culture instructors for their coursework delivery.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Mandy Smoker Broaddus
    Question. What standards and best practices exist for public 
schools to assess highly qualified teachers of Native languages and 
culture so that Alaska Native/American Indian pupils (indeed all 
students) may learn of and in Native language and culture?
    Answer. The Montana Office of Public Instruction (OPI), in 
recognition of the status as sovereign nations held by American Indian 
tribes, divests authority to recognize and approve all teachers of 
Native language/culture to that tribal group. OPI allows tribes to 
create their own process for determining what standards are used to 
determine who is a ``highly qualified'' instructor of a Native 
language. The OPI receives that information from each tribe, and awards 
a Class 7 certification for Native American Language and Culture.
    However, because Montana's constitutional mandate, known as Indian 
Education for All, requires that ALL teachers at ALL grade levels 
include appropriate and authentic American Indian content (including 
history, culture, contemporary issues, etc.), OPI actively provides 
professional development, resources and materials to all teachers and 
districts across the state. The OPI leads this effort through funding 
from the state legislature but does not assess whether individuals are 
highly qualified as a result. OPI efforts require that any and all 
teachers should feel comfortable and at ease in teaching American 
Indian content so that this important work can reach as many Montana 
students as possible.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Heidi Heitkamp to 
                            William Mendoza
    Question 1. In November last year I went to the visit Cannon Ball 
Elementary School which is located within the Standing Rock 
reservation. The school is in dreadful condition; full of mold, rats, a 
leaking roof, lack of safe playground equipment. It is 100 percent 
federally impacted and so there is no taxable state land nearby to 
support this school and thus heavily relies on Impact Aid. This is also 
one of the lowest performing schools in North Dakota. I am concerned 
about the message we send children about how they are valued when they 
show up to learn in these conditions. What is the White House 
Initiative doing to improve the conditions of facilities for federally 
impacted schools like Cannon Ball?
    Answer. We have also heard from tribes about the poor condition of 
certain schools on reservations, including tribally-controlled schools 
funded by BIE as well as public schools. For the public schools, 
section 8007 of the Elementary and Secondary Education Act of 1965 
(ESEA) authorizes the Department of Education (``ED'' or 
``Department'') to make grants to support school construction in local 
school districts that educate federally connected students or have 
federally owned land. The authorizing law provides that 40 percent of 
program funds are for formula grants and 60 percent for competitive 
grants; however, Congress routinely overrides this statutory 
allocation. In the last five years, formula construction grants under 
Section 8007(a) were funded in Fiscal Years (FY) 2010, 2011, and 2014, 
while competitive grants under Section 8007(b) were funded in Fiscal 
Years 2012 and 2013. Formula construction grants generally go to more 
districts in smaller amounts, typically in the tens of thousands of 
dollars, whereas competitive grants go to fewer districts in larger 
amounts, and recently ranged up to $6 million. The Solen (North Dakota) 
School District received a competitive grant in FY 2010 to fix a 
leaking roof and a malfunctioning HVAC system at Cannon Ball Elementary 
School. By August of 2012, the district had used the $215,000 award to 
completely replace the roof over part of the school, install new 
shingles on other portions of the roof, and replace its HVAC system. It 
has not applied for a competitive award since.
    For FY 2015, the Administration has requested $17.4 million for 
this construction program, the same as the 2014 level. These funds 
would be used entirely for competitive grants and would be available 
for two years, which is consistent with the Administration's ESEA 
reauthorization proposal, which would eliminate the formula component 
of the program. By awarding funds through a competitive process, the 
Department can ensure that districts with the greatest needs receive 
sufficient funds to make emergency repairs.
    With regard to other sources of funds to improve school facilities, 
most Department formula grant statutes do not authorize the use of 
funds for construction purposes. However, there are specific uses that 
are possible under various programs. The Department is considering 
working with the BIE to issue guidance to both public and BIE-funded 
schools on how to leverage existing federal funding streams to improve 
school facilities.

    Question 2. In November 2009, President Obama signed an Executive 
Order requiring Departments and Agencies to submit a consultation 
policy within 90 days. In the last five years, many federal agencies 
have been able to develop and implement a tribal consultation policy. 
Has the Department of Education developed a consultation policy?

    Question 2a. If there is a draft, would it be possible to share 
with the Committee?

    Question 2b. What is the timeline for finalizing the policy?
    Answer. Yes, the Department has an existing consultation policy, 
developed in 2001, which we have attached. The Department is developing 
a revised consultation policy and we are consulting with tribal leaders 
and tribal communities on the revised draft. We will provide you with a 
copy as soon as it is completed.

    Question 3. In your testimony you talk about the vital role the 
National Advisory Council on Indian Education (NACIE) plays in 
addressing the unique needs of Native students. NACIE submits an annual 
report to Congress on specific ways to improve education outcomes for 
Native students. When the annual report is submitted each year, how do 
you respond?

    Question 3a. Can you discuss the steps the White House Initiative 
is taking to help implement their specific recommendations?
    Answer. We are currently working on a formal response to the list 
of recommendations that NACIE submitted to the Department. In addition 
to providing support to NACIE in the development of its report to 
Congress each year, the White House Initiative (``WHIAIANE'' or 
``Initiative'') works closely with various agencies and offices to 
address NACIE's specific recommendations. For example, the Initiative 
works closely with the Executive Office of the President to help ensure 
American Indian and Alaska Native (AI/AN) participation in the 
development and implementation of key Administration priorities. The 
Initiative also works to strengthen the relationship between the 
Department of Education's Office of Indian Education (ED/OIE), and the 
Department of the Interior's Bureau of Indian Education (DoI/BIE), to 
draw upon each agency's expertise and resources to help improve AI/AN 
education.
    The Department's work is directly and indirectly addressing NACIE's 
specific recommendations. With respect to the recommendations on which 
the Department can have an impact (grouped by subject area), we are 
doing the following:

    <bullet> NACIE's priority to raise the profile of Indian education. 
The Department has taken steps to strengthen partnerships among the 
Federal government, tribes, and States. In 2009, President Obama issued 
a Memorandum to the heads of executive departments and agencies 
emphasizing his commitment to regular and meaningful consultation and 
collaboration with tribal officials in policy decisions that have 
tribal implications. The Memorandum called for complete and consistent 
implementation of Executive Order (EO) 13175. It also directed each 
agency to submit a detailed plan of action to implement the policies 
and directives of EO 13175. The Department was quick to respond to the 
Memorandum by conducting ten tribal consultations with tribal leaders 
and tribal communities in 2010-11. Since then, we have held over 30 
national consultations with tribes and tribal communities around the 
country. More information on these consultations can be found at: 
www.edtribalconsultations.org.
    Additionally, in 2012, the Department led development of two major 
Memoranda of Agreements (MOA) regarding: (1) strengthening coordination 
and collaboration between DOI and ED; and (2) DOI, HHS, and ED working 
together to encourage programs and projects that include instruction 
in, and preservation of, native languages. In addition to developing a 
course of action, these memoranda provide a framework for collaboration 
and coordination across Federal agencies to help expand educational 
opportunities, improve outcomes for all AI/AN students, and help 
preserve and revitalize native languages.
    The Initiative leads the DOI-ED Joint Committee on Indian Education 
(Committee), which includes tribal leaders from the Tribal Education 
Budget Council. The Committee was formed as a result of the 2012 ED-DOI 
Memorandum of Understanding (MOU). The MOU leverages the expertise of 
both departments to improve educational opportunities and outcomes for 
AI/AN students. The Committee is developing plans to implement seven 
specific goals and activities that are outlined in the MOU.
    The President's Interagency Working Group on Indian Education (IWG) 
was established by EO 13592. The IWG held its inaugural meeting in 
2013. Senior Administration Officials from 29 agencies came together to 
begin interagency implementation of the EO. The departments are 
developing four-year plans that will focus on expanding educational 
opportunities and improving outcomes for AI/AN students, including 
helping ensure the opportunity to learn their native languages.
    The Native Language Working Group derives from a Memorandum of 
Agreement on Native Languages among ED, the Department of Health and 
Human Services' Administration for Children and Families, and DOI/BIE. 
We are working to achieve the goals of that Memorandum. In addition to 
developing a course of action, the MOA provides a framework for 
collaboration and coordination across Federal agencies and we have 
already taken significant steps in helping to support the preservation 
and revitalization of native languages.

    <bullet> NACIE's call for the preservation and adequate funding for 
all Indian education programs. The Department has demonstrated strong 
support for AI/AN students through formula and competitive grants to 
help meet their unique needs. Approximately one-half of the $1.2 
billion in Impact Aid Basic Support Payments for FY 2014 will be 
distributed to districts that provide free public education to children 
living on Indian lands. Title VII, Part A, of the ESEA provides formula 
grants to over 1,300 school districts that educate AI/AN students 
totaling approximately $100 million for FY 2014. The funds must be used 
to meet the needs of those students, including language and cultural 
needs, to help them succeed in school. Additionally, several 
competitive programs that help improve the quality of education for 
Indian students and prepare and train Indians to serve as teachers and 
school administrators are supported through Title VII, Part A , 
including Demonstration Grants (Section 7121); Professional Development 
Grants (Section 7122); and the State Tribal Education Partnership 
(STEP) program (Section 7131). Moreover, the Alaska Native Education 
(ANE) program supports activities that provide educational 
opportunities that are culturally relevant and beneficial to Alaska 
Native Students and the community. In 2013, there were 57 active ANE 
grants for a total investment of $31.5 million.
    The Department also granted approximately $138.3 million to tribal 
colleges and universities (TCUs) in FY 2012. This funding was dedicated 
to four activities: (1) improving and strengthening the academic 
quality, institutional management, and fiscal stability of TCUs; (2) 
grants and loan assistance authorized under Title IV of the Higher 
Education Act of 1965 (HEA) to help TCU students pay for college; (3) 
grants to prepare and train AI/ANs to serve as teachers and education 
professionals; and, (4) grants to Federally recognized Indian tribes, 
tribal organizations, Alaska Native entities, and eligible BIE-funded 
schools to improve career and technical education (CTE) programs for 
AI/ANs.

    <bullet> NACIE's prioritization of early childhood education. The 
Department has ensured that tribes and Indian organizations are 
eligible early-learning providers in the upcoming competition for 
Preschool Development Grants . We intend for high-quality preschool 
programs to be located in regionally diverse communities or consortia 
of communities in cities, towns, counties, neighborhood, districts, and 
rural or tribal areas, with a high level of need or distress as 
determined by the State. Programs must use early learning standards 
that are developmentally, culturally, and linguistically appropriate. 
Our intention is that programs serving Indian children would support 
native or home languages.

  <bullet> NACIE's recommendation that the Department place a high 
        priority on improving technical assistance to Indian Country. 
        ED's OIE provided approximately $993,000 in FY 2012 funds to 
        three Regional Comprehensive Centers to improve outcomes for 
        AI/AN students by providing technical assistance to State 
        educational agencies (SEAs). This support will amount to nearly 
        $5 million in technical assistance services, including working 
        with States to help them gain a better understanding of the 
        issues and challenges facing AI/AN students, building cultural 
        competency among staff, and delivering instruction that is 
        culturally appropriate for students. ED also continues to 
        partner with the National Congress of American Indians, the 
        largest member organization of AI/AN educators and advocates in 
        the country, to deliver high-quality technical assistance 
        during their annual convention. The fourth annual ED Technical 
        Assistance Day, ``Strong Partnerships, Successful Students,'' 
        brought over 300 AI/AN educators and advocates together with ED 
        Senior Officials and program staff to engage on the 
        Administration's reform agenda, initiatives, programs, and 
        funds available to support AI/AN students.

  <bullet> NACIE's priority regarding the advancement of 
        intergovernmental collaboration. Interior Secretary Sally 
        Jewell and Education Secretary Arne Duncan have convened an 
        American Indian Education Study Group (Study Group), which is 
        charged with finding solutions to the challenges faced by BIE-
        funded schools. Since September 2013, the Study Group has 
        developed a draft framework for education reform and conducted 
        numerous listening sessions with tribal leaders and 
        representatives throughout Indian Country to determine how to 
        build the capacity of tribes to operate high-performing schools 
        that ensure that all BIE students are well-prepared for 
        college, careers, and tribal and global citizenship. In 
        response to the many insightful comments presented at the 
        listening sessions, the Study Group developed and released a 
        draft framework based on four pillars of educational reform: 
        (1) Effective Teachers and Principals--Help Tribes identify, 
        recruit, retain, and empower diverse, highly effective teachers 
        and principals to maximize achievement in all tribally 
        controlled schools; (2) Agile Organizational Environment--Build 
        responsive organizations that provide resources, direction, and 
        services to Tribes so they can help their students attain high-
        levels of student achievement; (3) Budget Aligned to Capacity 
        Building--Develop a budget that is aligned to, and supports, 
        BIE's new mission of tribal capacity-building and scaling up 
        best practices; and 4) Comprehensive Support Through 
        Partnerships--Foster parental, community, and organizational 
        partnerships to provide the emotional and social supports BIE 
        students need in order to be ready to learn. In April and May 
        of 2014, the Secretaries conducted consultation on the draft 
        framework and provided tribal leaders with an update on the 
        work of the Study Group. The Secretaries are reviewing the 
        recommendations from these consultations.
    With regard to public schools serving Indian students, see 
``NACIE's priority to raise the profile of Indian education,'' above, 
for discussion of recent interagency efforts.

    Question 4. An overarching concern from Native education advocates 
is the need to elevate Indian education issues. The President has 
sanctioned numerous Advisory Councils for other minority groups, yet 
the data indicates that Native students are the lowest performing group 
served in our public schools. How is the White House Initiative working 
to elevate NACIE's work in the Department of Education so the Secretary 
and President use them as a resource for public education and Native 
education issues?
    Answer. In addition to other responsibilities, NACIE serves as the 
advisory council to the Initiative, in accordance with Section 5(a) of 
EO 13592. The Initiative has taken a number of significant steps to 
directly and indirectly engage with NACIE to implement EO 13592. The 
Initiative has worked closely with NACIE, and with the Office of Indian 
Education within the Department, with other Federal agencies and 
offices, especially with DoI/BIE and HHS, and the Executive Office of 
the President to help ensure AI/AN participation in the development and 
implementation of key Administration priorities.
    The President's Interagency Working Group on Indian Education has 
also brought together Senior Administration Officials from 29 federal 
agencies to implement the President's Executive Order. The development 
of the Federal agencies' two-part, 4-year plans is under way and will 
focus on the agencies' efforts to help expand educational opportunities 
and improve educational outcomes for all AI/AN students. We look 
forward to providing you these plans when they are completed.

    Question 4a. What structural changes within the Department of 
Education are being made to make Indian students a higher priority?
    Answer. The establishment of the 2012 MOA with DOI has elevated the 
educational issues regarding Indian students within ED. Based on the 
MOA, we have established a Joint Committee on Indian Education, 
consisting of high-level officials from DOI and ED and additional 
subcommittee members, which includes tribal leaders from the Tribal 
Education Budget Council. We have established structured committee 
meetings that meet at least quarterly to work on the goals and specific 
activities designed to reach the stated goals to improve Indian 
education. The goals address several major areas that will also 
strengthen the relationship between ED and BIE to help improve primary, 
secondary, and postsecondary education for AI/AN children and young 
adults.
    Major areas addressed by the goals include: increasing educational 
opportunities and educational outcomes of AI/AN students; enhancing 
tribal sovereignty to build the capacity of tribal education agencies 
(TEAs); streamlining the agreement process for educational studies 
conducted on tribal lands; partnerships to help increase students 
completing college; and expanding and merging databases between ED and 
BIE to share and implement best practices. Currently, the subcommittees 
are working on clarifying the goals and developing long- and short-term 
solutions. After the subcommittees complete this work, a final report 
will be developed and submitted to the Secretaries for further action, 
which will include approval for prioritized implementation.

    Question 5. The President's FY 2015 budget slightly increases its 
support for historically black colleges and universities to $309 
million, while Hispanic-serving institutions would receive $207 
million. TRIO and GEAR UP would continue at $838 million and $302 
million. In comparison, tribal colleges would only receive $55 million. 
The Federal Government has a documented trust and treaty responsibility 
to tribes which makes it unique. Tribal colleges play a huge role in 
ensuring student success at four year institutions, as well as 
assisting parents to obtain their GEDs and continue their education, 
which we know is important to ensuring their children succeed 
academically. How is the White House Initiative working to ensure there 
is more parity in the President's budget to better match the support 
given to other minority higher education programs?
    Answer. The FY 2015 request would provide a total of $530 million 
in competitive funding and $255 million in mandatory funding for the 
programs for minority-serving institutions under Titles III and V of 
the HEA. The President recognizes that the colleges that participate in 
these programs, including tribal colleges, play a unique and vital role 
in providing higher education opportunity to institutions that enroll a 
large proportion of minority and disadvantaged students. However, due 
to current budgetary constraints, the fiscal year 2015 request would 
maintain discretionary funding at the fiscal year 2014 level for these 
programs. The President's fiscal year 2015 budget request for the Title 
III/Title V minority-serving institutions programs includes an increase 
because fiscal year 2014 funding for the mandatory programs (mostly 
Titles III and V programs) reflected the 7.2 percent sequester that 
went into effect on October 1, 2013, pursuant to the Budget Control Act 
of 2011 (P.L. 112-25). The 2015 President's Budget does not reflect a 
sequester for these programs, resulting in a small increase in funding 
over the 2014 mandatory levels.
    The FY 2015 request for discretionary funding for the vast majority 
of Higher Education programs, including the Federal TRIO Programs and 
Gaining Early Awareness and Readiness for Undergraduate Programs (GEAR 
UP), is the same as provided by Congress in the FY 2014 appropriation. 
The TRIO and GEAR UP programs, for which Tribal Colleges are eligible, 
collectively serve and assist hundreds of thousands of low-income 
individuals, first-generation college students to help them prepare 
for, enter, and complete college and graduate studies. In FY 2013, 
fifteen Tribal Colleges and Universities received support from the TRIO 
programs and the GEAR UP program totaling approximately $4 million.
    The 2015 request for ED's Higher Education Programs supports 
programs that help achieve the President's goal that, by 2020, America 
will once again have the highest proportion of college graduates in the 
world. To support this goal, the request includes a number of grant 
initiatives to improve affordability, quality, and success in 
postsecondary education that Tribal Colleges would be eligible to apply 
for, including: the First in the World fund, which would make 
competitive awards to institutions of higher education to encourage 
innovation; College Success Grants for Minority-Serving Institutions 
and Historically Black Colleges and Universities, which would be made 
available through competitive grants to support implementation of 
sustainable strategies for reducing costs and improving outcomes for 
students; and the College Opportunity and Graduation Bonus that would 
reward colleges that successfully enroll and graduate a significant 
number of low- and moderate-income students on time and that would 
encourage all institutions to improve performance. Tribal colleges or 
universities would also be eligible for funds in States that receive 
grants under the Administration's proposed State Higher Education 
Performance Fund to support, reform, and improve the performance of 
their public higher education systems.
    In FY 2015, the White House Initiative on American Indian and 
Alaska Native Education will continue to coordinate with the National 
Advisory Council on Indian Education and the White House Council on 
Native American Affairs; assist the Department as liaison between the 
executive branch and the tribal colleges; and work with other Federal 
agencies, as well as other public and private partners, to strengthen 
the capacity of these institutions, which we regard as vital in 
providing higher education opportunity to these institutions.

    Question 5a. United Tribes Technical College (UTTC) is one of two 
tribal technical colleges authorized and funded under Title V of the 
Tribal College Act to provide postsecondary career and technical 
education. UTTC provides comprehensive education and training programs 
to Indian students from more than 75 tribes. For several years, UTTC 
has sought forward funding of its programs to bring it on par with the 
other tribal colleges nationwide that received forward funding, at the 
Administration's request, in fiscal year 2010. What steps will the 
Administration take to make sure UTTC is forward funded like the other 
tribal colleges?
    Answer. The Department has not requested forward funding for the 
Tribally Controlled Postsecondary Career and Technical Institutions 
(TCPCTI) program, authorized under Section 117 of the Carl D. Perkins 
Career and Technical Education Act, because the timing of the forward-
funded appropriation and corresponding awards under the Bureau of 
Indian Education (BIE) is similar to the timing of the appropriations 
for Department of Education's Section 117 program. For example, FY 2014 
current funding for Section 117 recipients, which provides funds for 
the 2014-15 school year, became available on October 1, 2013, well in 
advance of the 2014-15 school year. The 2014 forward funding for the 
BIE tribal colleges, which is also for the 2014-15 school year, will 
become available on July 1, 2014, and awarded to recipients before the 
school year starts.
    The key factor in determining the TCPCTI award schedule is the 
statutory requirement to partially base award amounts on the most 
recent school year's Indian student counts. For example, to determine 
how much funding each grantee would receive from the FY 2014 
appropriation to carry out activities during school year 2014-15, we 
must use Indian student counts based on summer, fall, spring, and 
continuing education enrollment from school year 2013-14 to make FY 
2014 awards for the 2014-15 school year. Generally, the Department 
requests Indian student count data from grantees in June. After 
grantees submit the counts, Department staff review the data to 
determine if there were significant increases or decreases and then 
follow up with the institutions to verify the information. On occasion, 
the institutions have revised their student counts as a result of these 
follow-up conversations. Once we have final student counts, we run the 
formula to determine grant award amounts.
    In addition, ED regulations require that, before making 
continuation grant awards, the Department must also determine that 
grantees have made substantial progress toward meeting the targets and 
projected outcomes they proposed in their applications, and that they 
have used funds in a manner that is consistent with their approved 
applications and budgets. We also must negotiate between program staff 
and grantees regarding budgets and uses of funds for the subsequent 
school year. Generally, all of these activities require several weeks 
of back-and-forth communications between program staff and the grantees 
during the summer months (again, the process can't start until we 
receive updated student counts, which are not available until the end 
of the previous school year), with final grant awards made in August or 
September.
    In recognition of the fact that at least one grantee conducts 
preliminary school-year activities in mid-summer (before final grant 
awards are made), we often make partial grant awards to the grantees 
earlier in the summer to assist them in carrying out these early 
school-year activities.

    Question 6. In your written testimony you highlight the President's 
grant funding initiatives. I support the concept of rewarding high 
performance but oftentimes low performing schools are low performing 
simply because they lack resources. These low performing schools in 
North Dakota often have high percentage of Native students and are in 
remote areas so they do not have the resources to put together 
competitive grant applications. What is the White House Initiative 
doing to expand formula-funded programming to target areas of the 
country with the highest need?
    Answer. The Administration firmly believes that all children 
deserve a world-class education, regardless of their race, ethnicity, 
disability, native language, income level, or Zip Code. The focus 
should be on schools and students who are at risk, and on meaningful 
reforms that will help these students succeed. Historically, the 
Federal role in education has been to provide funding for students who 
need it most, and the fiscal year 2015 budget continues to protect the 
formula funding that supports millions of disadvantaged and vulnerable 
learners throughout the country, including Indian students receiving 
support through Title VII, Part A of the ESEA. Title VII provides 
formula grants to over 1300 LEAs (as well as BIE-funded tribally-
controlled schools, and some tribes that apply in lieu of the LEA) in 
their efforts to reform elementary and secondary school programs that 
serve Indian students. The Office of Indian Education (OIE) has 
implemented recent changes to this formula grant program that emphasize 
the use of funds for culturally-responsive education practices and 
local coordination among federally-funded education programs in schools 
for the benefit of Indian students.
    The lion's share of the FY 2015 budget request for K-12 programs-
nearly 90 percent of K-12 discretionary spending-goes to formula funds. 
At the same time, competitive funds can drive positive change and there 
is a role for competitive funding in education reform. The Department 
can target specific areas and reforms through competitive awards that 
support State and school district reforms, which will also help them, 
and other States and districts, use their formula funds more 
effectively for kids.

    Question 7. The KIDS COUNT policy report, Race for Results: 
Building a Path to Opportunity for All Children report makes four 
policy recommendations to help ensure that all children and their 
families, independent of race and ethnicity, achieve their full 
potential. The report suggests we need to: (1) Gather and analyze 
racial and ethnic data; (2) Use data to target investments; (3) Develop 
and implement promising and proven programs/practices; and (4) Connect 
vulnerable groups to new jobs and opportunities. How does the White 
House Initiative use this kind of report to advocate for developing 
programs which follow these kinds of recommendations?
    Answer. The Department considers input and policy recommendations, 
such as those recommended by the KIDS COUNT policy report, from a broad 
range of stakeholders in developing programs. These take the form of 
reports and policy briefs, public comments on blog posts, letters and 
e-mails, public testimony, and meetings. In developing programs, we use 
various communication tools to publicly encourage all interested 
parties to submit opinions, ideas, suggestions, and comments pertaining 
to a particular program.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            William Mendoza
    Question 1. We are concerned about the lack of AN/AI teachers 
prepared and able to be hired and retained, especially by LEAs with 
large AN/AI student populations. Do you have any estimates on the 
proportion of AN/AI teachers compared with AN/AI pupils in public 
schools in states with high AN/AI populations?
    Answer. We have very limited data on the proportion of AI/AN 
teachers in 12 selected states with relatively high AI/AN enrollments. 
In those states, the proportion of AI/AN students averages 4.8 percent, 
and the proportion of AI/AN teachers averages 1.8 percent. Please see 
table provided separately.

    Question 2. What are the Administration's efforts to strengthen the 
pipeline for AN/AI teachers to be recruited by public schools?
    Answer. In our 2010 proposal for reauthorizing the Elementary and 
Secondary Education Act (ESEA), we envisioned continuation of formula 
and competitive grants to provide strong support to help meet the 
unique needs of AI/AN students. The Department's proposal would provide 
greater flexibility in the use of funds to carry out programs such as 
Native language immersion and Native language restoration programs, as 
well as to develop tribal specific standards and assessments. The 
proposal would also improve access to funds for Indian tribes under 
other ESEA programs, and would recognize and strengthen the role of 
tribal education departments in coordinating and implementing services 
and programs for Indian students within their jurisdictions. However, 
because the ESEA has not been reauthorized, our vision for improving 
AI/AN programs through greater flexibility and access to funds has not 
come to fruition.
    The Office of Indian Education (OIE), in the Office of Elementary 
and Secondary Education (OESE), administers Indian Education 
Professional Development (PD) Grants under Title VII-A-2 of the ESEA. 
The purpose of the PD grant program is to prepare and train American 
Indian/Alaska Native (AI/AN) professionals to increase the number of 
qualified individuals in professions that serve AI/AN populations 
across the United States, primarily as teachers, school administrators, 
teacher aides, language instructors, and ancillary education personnel. 
OIE awards grants to institutions of higher education that then provide 
supplemental funding and support to undergraduate and graduate students 
who are pursuing degrees and/or certificates in education. The 
participants who accept funding and training under this program must 
perform work that benefits Native people, and is related to their 
training, or repay the assistance.
    The Department is in the initial stage of rulemaking, and has 
consulted to amend the current regulations for the PD program. The 
Department consulted with AI/AN tribes to better understand specific 
barriers that affect teacher recruitment and preparation. The feedback 
that the Department received through consultation is currently 
informing the rulemaking for this program. For example, the Department 
learned that providing more information about the ``payback'' 
requirements would help prospective participants make more informed 
decisions about participating in the program. The Department will 
provide the Notice of Proposed Rulemaking to the committee as soon as 
it is publicly available.

    Question 2a. How successful are the loan repayment programs?
    Answer. For OIE's PD program, the Department developed a web-based 
data collection system to track and monitor participants' compliance 
with the work-related payback requirement, facilitate grantee reporting 
of student training costs, and capture data required by the Government 
Performance and Results Act of 1993 (GPRA). This system collects real-
time data from the field that provides the Department with an 
opportunity to identify ways to provide more timely and relevant 
technical assistance, which is expected to improve grantee performance. 
A link to the new PD payback system is included here: https://
pdp.ed.gov/OIE/. Regarding the success of the PD program, see the 
statistics below.

    i. How many teachers does it incentivize?

    Answer. Over the past five years of the PD program: 40 grants were 
awarded; 100 percent of participants who exited or completed their 
program of study are completing the required payback; 44 percent of 
participants (148) who have exited or completed their program of study 
are completing or have completed a work-related payback.

    ii.Is the funding fully spent every year?

    Answer. Yes, all funds appropriated for this program were obligated 
to grantees.

    Question 2b. What suggestions do you have to bolster this program 
or other efforts to increase the preparation of AN/AI teachers for 
public schools?
    Answer. As explained above, the Department is engaging in 
rulemaking to further strengthen OIE's PD program and help more 
participants find jobs in schools serving Indian children. In addition, 
as stated above, the Department, in its 2010 proposal for reauthorizing 
the ESEA, proposed continuation of both formula and competitive grants 
to provide strong support to help meet the unique needs of AI/AN 
students. The Department's proposal would provide greater flexibility 
in the use of funds to carry out programs such as Native language 
immersion and Native language restoration programs, as well as to 
develop tribal-specific standards and assessments. The proposal would 
also improve access to funds for Indian tribes under other ESEA 
programs, and would recognize and strengthen the role of tribal 
education departments in coordinating and implementing services and 
programs for Indian students within their jurisdictions.

    Question 3. What else can the Administration do to help LEAs on/
near reservations recruit and retain teachers?
    Answer. In addition to the discretionary grant program described 
above, the Indian Education Formula Grants to Local Educational 
Agencies (LEAs) program, authorized by Title VII of the ESEA, provides 
grants to over 1,300 local educational agencies (as well as BIE-funded 
tribally controlled schools, and some tribes that apply in lieu of the 
LEA) in their efforts to reform elementary and secondary school 
programs that serve Indian students. All grantees are required to 
provide any needed professional development to ensure that teachers and 
other school professionals who are new to the Indian community are 
prepared to work with Indian children, and that all teachers who will 
be involved in programs assisted by the grant have been properly 
trained to carry out those programs. Some examples of the types of 
professional development that have been funded by Title VII include 
integrating Indian-specific content into the general curriculum, Indian 
Education-specific PD (e.g. instruction in specific language or Indian 
curricula), and cultural awareness education and sensitivity training.
    The Department also administers the Title II, Part A program, the 
purpose of which is to improve the academic achievement of all students 
by helping schools and districts improve teacher and principal quality 
and to ensure that all teachers are highly qualified. Through the 
program, State and local educational agencies (SEAs and LEAs), and 
State agencies for higher education (SAHEs) receive funds on a formula 
basis. Eligible partnerships consisting of high-need LEAs and 
institutions of higher education (IHEs) receive funds that are 
competitively awarded by the SAHE. While these funds can be used to 
support preparation of AI/AN teachers for public schools, the programs 
do not target any particular group of teachers and funds are not 
designed to support teacher preparation programs. The focus is on 
supporting all classroom teachers, particularly teachers who are not 
deemed highly qualified. However, the BIE receives funds for the Title 
II, Part A program and carries out activities consistent with the goals 
of the program, targeting teachers in BIE-funded schools.
    The Teacher Incentive Fund (TIF) is another program designed to 
support teachers. One of the key features of the TIF program is to take 
teachers who may be effective and move them to being identified as 
highly effective by supporting them with professional development, and 
teaching in high-need schools. There are TIF projects, such as the 
grant awarded to the Maricopa (AZ) County Education Service Agency, 
that help support teachers of AI/AN students.
    In addition to teacher-related programs administered by OESE , the 
Office of Special Education Programs (OSEP) funds discretionary grants 
through its Personnel Development Program (PDP) to prepare personnel 
for careers in the field of special education, early childhood, and 
related services. These PDP grants pay for tuition, fees, and books, 
for example, to help ensure that students complete the program. In a 
recent Fiscal Year, 82 American Indian or Alaska Native scholars were 
enrolled in OSEP-funded programs that lead to degrees (bachelor's 
through doctoral levels) and/or certification or licensure.

    Question 4. What is the Administration doing to disseminate best 
practices so that LEAs serving AN/AI students can benefit from 
successful approaches elsewhere?
    Answer. The Department supports a network of regional comprehensive 
and content centers that are committed to supporting the technical and 
information needs of SEAs and LEAs in the dissemination of best 
practices, including SEAs and LEAs serving AI/AN educators and 
students. The Center on Great Teachers and Leaders (GTL Center), a 
federally supported content center, is based at the American Institutes 
for Research and funded through a cooperative agreement by ED's Office 
of Elementary and Secondary Education. The GTL Center is dedicated to 
supporting State education leaders in their efforts to grow and retain 
great teachers and leaders for all students. The GTL Center continues 
the work of the National Comprehensive Center for Teacher Quality (TQ 
Center) and expands its focus to provide technical assistance and on-
line resources designed to build systems that:

  <bullet> Support the implementation of college and career standards;

  <bullet> Ensure the equitable distribution of effective teachers and 
        leaders;

  <bullet> Recruit, retain, reward, and support effective educators;

  <bullet> Develop coherent human capital management systems;

  <bullet> Create safe academic environments that increase student 
        learning through positive behavior management and appropriate 
        discipline; and,

  <bullet> Use data to guide professional development and improve 
        instruction.

    For the past 11 years, Tribal Colleges and Universities and other 
institutions with high American Indian enrollments have been a priority 
for the Monarch Technical Assistance Center funded by OSEP. The goal 
has been to create new programs, strengthen existing programs, add 
specialized strands, facilitate collaborations among 2-year and 4-year 
institutions, and design program structures that will bolster 
recruitment and retention of American Indian students who seek degrees 
and certification to teach children and youth with disabilities in 
their home communities.
    Specific foci of the Monarch Center's technical assistance to 
Tribal Colleges and Universities include:

  <bullet> Preparation for approval by the National Council for 
        Accreditation of Teacher Education (NCATE);

  <bullet> Development of new elementary education/early childhood 
        education program including program design, state approval 
        process, course design, and practicum site development;

  <bullet> Facilitation of articulation agreements between 2-year and 
        4-year colleges/universities;

  <bullet> Creation of a para-educator program to prepare for serving 
        individuals with disabilities;

  <bullet> Establishing a licensure program that previously depended on 
        outside non-Tribal college for enrollment;

  <bullet> Provision of leadership and facilitating a process toward 
        creation of a Tribal Colleges and Universities Consortium 
        (TCUC) for Teacher Education that will facilitate intercampus 
        collaboration

    The Monarch Center has serviced 17 Tribal Colleges and Universities 
and 1 Alaska Native IHE.
    Finally, the RESPECT Initiative, captured in the RESPECT Blueprint 
for Transforming Teaching, seeks to work with educators to rebuild the 
teaching profession along the entire spectrum of recruitment, 
preparation, professional development, compensation, and retention by 
advocating a higher bar for entry into the field, the establishment of 
more excellent teacher-training programs, and the development of 
meaningful career-advancement opportunities that offer competitive 
compensation and opportunities for increasingly impactful roles and 
responsibilities. The goal is to establish a teaching profession--
including teachers on or near reservations--that is prepared and 
empowered to help our students meet the demands of the 21st Century.
    Over the past four years, this Administration has begun laying the 
foundation for RESPECT, including by making some progress on the seven 
critical elements set forth in the Blueprint. To more fully realize the 
RESPECT vision, the President has proposed $5 billion in one-time 2015 
mandatory funds to provide targeted support for teachers and school 
leaders by improving preparation and early career assistance, giving 
teachers and leaders opportunities to develop and advance as they lead 
the transition to college- and career-ready standards, and ensuring 
that teachers have a supportive work environment built around shared 
collaboration. This request would support up to 1,000 grants to States 
and districts to invest in needed improvements to the education 
profession, reaching up to 1.6 million teachers. We have held hundreds 
of conversations with thousands of educators on how they can implement 
RESPECT-like changes in their local contexts and provided capacity-
building resources via www.ed.gov/teaching.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Lisa Murkowski to 
                            William Mendoza
    Question 1. Many tribal organizations in Alaska have contacted me 
in frustration because, despite working with tribal children in the 
public schools, they are often unable to get the district to share the 
students' data with them. I am told that the Department has provided 
guidance to districts that they may provide student data to tribes in 
such circumstances. Has the Department considered offering stronger 
guidance, or promulgating regulations that would require districts to 
do so? If not, why not?
    Answer. Section 444 of the General Education Provisions Act 
(commonly known as the Family Educational Rights and Privacy Act 
(FERPA)'' does not require educational agencies or institutions to 
disclose students' education records to others (and permits them to do 
so only under certain specific circumstances), and the Department 
cannot require districts to disclose education records under FERPA. 
Instead, FERPA generally permits educational agencies and institutions 
to disclose student's education records to others only if the 
educational agencies and institutions obtain the written consent of 
eligible students or their parents to do so, unless an exception to the 
general requirement of consent applies. FERPA applies to educational 
agencies and institutions that receive funds under any program 
administered by the Secretary of Education. When a student reaches 18 
years of age or attends a postsecondary institution, the student 
becomes an ``eligible student'' and all FERPA rights transfer from the 
parents to the student.
    In the preamble to the December 2, 2011, Federal Register notice 
that revised the FERPA regulations, the Department addressed a number 
of FERPA issues relevant to tribal organizations. The Notice referenced 
the agreement between the DOI and ED concerning transfers of funds 
under the ESEA. Under that agreement, ED treats the BIE as a ``State 
educational agency'' (SEA) for monitoring and compliance purposes, and 
each BIE school is treated as an LEA. The Department further indicated 
in the 2011 Notice that we similarly would treat BIE schools as 
``educational agencies or institutions'' under FERPA and would treat 
the BIE as a ``State or local educational authority'' under FERPA. 
Further, we indicated that we did not consider TEAs to be a ``State or 
local educational authority'' under FERPA. The Department also 
explained that, because we had not proposed to define the term ``State 
and local educational authorities'' in the Notice of Proposed 
Rulemaking, we declined to regulate on this without providing the 
public with notice and the opportunity to comment.
    The Department, however, implemented a significant change that 
impacts tribal organizations in the Department's 2011 amendment to the 
FERPA regulations. The Department interpreted the audit and evaluation 
exception to consent in FERPA to permit State and local educational 
authorities, such as SEAs and LEAs, to designate as their ``authorized 
representative'' any individual or entity to assist in the audit or 
evaluation of Federal- or State-supported education programs, as long 
as certain conditions are met. Accordingly, an SEA or LEA that would 
like to work with a TEA to audit or evaluate the effectiveness of a 
Federal- or State-supported education program may do so and disclose 
education records to the TEA serving as the SEA's or LEA's ``authorized 
representative'' under the ``audit and evaluation'' exception to 
consent in FERPA. The parties would be required to enter into a written 
agreement that stipulates, in part, that the TEA may use any PII from 
education records only for the purpose of the audit or evaluation, must 
protect the PII from further disclosure, and must destroy the PII when 
it is no longer needed for the purpose for which it was disclosed.
    In the most recent Memorandum of Agreement between the Department 
and the BIE (December 3, 2012), the Department agreed to work with SEAs 
to promote greater communication between SEAs and tribes, between SEAs 
and BIE-funded schools, and between tribal governments and BIE-funded 
schools concerning tribal access to education records of students who 
are tribal members, consistent with FERPA and other privacy 
protections. The Department agreed to communicate that: FERPA does not 
prohibit data-sharing with tribes or TEAs if required steps and 
safeguards are followed; while FERPA generally prohibits the disclosure 
of PII from students' education records without parental consent, an 
LEA or SEA may release information on students to a tribe or TEA in 
non-personally identifiable form; and an LEA or an SEA may designate an 
Indian tribe or TEA as its authorized representative to audit or 
evaluate Federal or State-supported education programs, under the 
conditions set forth in the Department's FERPA regulations. (see 34 CFR 
  99.3, 99.31(a)(3), 99.35). The BIE similarly agreed to work to 
promote greater communication between BIE-operated schools and tribes 
concerning tribal access to the education records of students who are 
tribal members.
    The Department has conducted several public information sessions 
that address these FERPA-tribal issues. At the annual National Indian 
Education Association conference, which grantees of the Department's 
Indian Education formula grants attend, the Department sponsors a 
series of workshops though video-teleconference with presenters from 
the Department. For the last several years, the Department's Family 
Compliance Office (FPCO) has presented by teleconference a Q/A session 
on FERPA. In addition, on March 20, 2014, the Department conducted a 
webinar on FERPA specifically for State Tribal Educational Partnership 
(STEP) grantees. During the webinar, which was attended by 
representatives of tribes, school districts, and States, the FPCO 
addressed the various ways in which school districts or states can 
share data on tribal students consistent with FERPA.
    The Department also addressed data sharing with TEAs under FERPA in 
the STEP Grant competition FY 2012 Frequently Asked Questions, 
available at: http://www2.ed.gov/programs/step/faq.html#9. The 
Department's Office of Indian Education (OIE), working with the FPCO, 
also plans to issue further guidance to Department grantees regarding 
options for data-sharing with tribal entities under FERPA.

    Question 2. Why does the Department house Title VII Part A Indian 
Education program staff in the Office of Indian Education and Title VII 
Part C Alaska Native Educational Equity Program (ANEP) staff in the 
Office of Elementary and Secondary Education? If the Department has 
decided not to locate ANEP program staff under OIE, please explain why.
    Answer. The Alaska Native Education Program (ANEP), authorized 
under Title VII, Part C of the ESEA is administered by the Academic 
Improvement and Teacher Quality (AITQ) section of the Department's 
Office of Elementary and Secondary Education (OESE). The Office of 
Indian Education (OIE) is also located in OESE. The Department is 
committed to administering programs in as seamless a manner as possible 
while, at the same time, working together to continually improve cross-
program coordination, collaboration, and overall program effectiveness. 
For example, the policy decisionmaking process for all Indian education 
programs authorized under Title VII of the ESEA includes an inter- and 
intra-program staff team with representatives from the WHIAIANE, the 
OIE, and staff who administer the ANEP and the Native Hawaiian program.

    Question 3. Neither the 2011 National Indian Education Study nor 
the recently released Office of Civil Rights data breaks out the data 
for Alaska Native students as distinct from the American Indian/Alaska 
Native subgroup. Does the Department have plans to change that? If so, 
please describe them.
    Answer. The Office of Management and Budget (OMB) is responsible 
for establishing government-wide standards for reporting data by race 
and ethnicity. In 1997, OMB published revised standards for the 
collection of data on race and ethnicity. In accordance with these 
standards, the Department published final guidance in the Federal 
Register on October 19, 2007 on the collection and reporting of racial 
and ethnic data by educational institutions and other grantees. The 
2007 Final Guidance applies to all major Department of Education data 
collections, including the Civil Rights Data Collection.
    One of the data categories included in the Department's 2007 Final 
Guidance is the category of American Indian/Alaska Native. The 
Department's 2007 Guidance did not provide for separate reporting for 
Alaska Native students. Therefore, the Civil Rights Data Collection 
collects data on the combined category of American Indian/Alaska Native 
and does not collect separate data for Alaska Natives.
    The first year for full implementation of the requirements of the 
2007 Final Guidance was the 2011-2012 school year. This gave States and 
school districts time to implement the necessary changes to their data-
collection and recordkeeping systems.
    Ultimately, the Department's final requirements aim to strike the 
balance between minimizing the burden for local education agencies 
while also ensuring the availability of high-quality racial and ethnic 
data for carrying out the Department's responsibilities in areas 
including civil rights enforcement, program monitoring, the 
identification and placement of students in special education, research 
and statistical analysis, and accountability for student achievement. 
We are not planning to change the guidance at this time. However, so 
long as they can still aggregate the data into the format required by 
ED, schools districts and States already have the flexibility to 
collect racial and ethnic data on sub-categories of students to better 
meet the needs of their local communities.

    Question 4. In your written testimony, you noted that since the 
President signed Executive Order 13592, the following actions have 
occurred: the White House Initiative on American Indian and Alaska 
Native Education was formed and has engaged in Listening Sessions with 
tribes. The President's Interagency Working Group on Indian Education 
has been formed and 29 agencies met in 2013 to begin interagency 
implementation of the Executive Order. The Native Languages Working 
Group was formed and is planning a Native American Languages Summit for 
this June to discuss ways to measure successful Native language 
preservation and acquisition. A joint DOl-ED Committee on Indian 
Education has been formed, which has developed a Memorandum of 
Understanding to leverage both departments' expertise. The joint 
Committee has also ``started working on developing plans to implement 
seven specific goals and activities''. After the formation of all of 
these groups, the listening sessions, and the work to develop plans and 
summits, what, specifically, has resulted that has impacted schools, 
tribes, and, most importantly, American Indian/Alaska Native students, 
in public schools across America?
    Answer. In addition to working closely with the Executive Office of 
the President to help ensure AI/AN participation in the development and 
implementation of key Administration priorities, the WHIAIANE 
coordinates with the Department's Director of Indian Education on 
programs administered by the Department and also serves as a liaison 
with other executive branch agencies on AI/AN issues and advises those 
agencies on how they might help to promote AI/AN educational 
opportunities.
    Through these efforts, the OIE has made several important changes 
to the application for Title VII formula grants for FY 2014 in order to 
emphasize the statutory requirement that grant funds be used as part of 
a comprehensive program to meet the culturally-related academic needs 
of Indian students, including the language and cultural needs of the 
children. In 2013, there were approximately 1,300 Title VII programs 
and 500,000 students served nationwide.
    The Interagency Working Group on Indian Education has developed the 
tools to gather information from agencies and is working with agencies 
to develop and submit their Federal agency plans. Each agency's plan 
includes annual performance indicators and appropriate measurable 
objectives with which the agency will measure its success as well as 
information on how the agency intends to increase the capacity of 
educational agencies and institutions, including public schools and 
tribal colleges and universities, to deliver high-quality education and 
related social services to all AI/AN students.
    To gather the information needed to achieve the seven goals of the 
MOA, the Joint Committee created an assessment document that was 
disseminated throughout all three agencies. We have received responses 
to the assessment document and have begun to review the information.
    In addition to the Native Language Summit, the Native Language 
Workgroup (NLW) has developed a resource assessment document to gather 
information from federal agencies to identify barriers, levers, and 
best practices within each agency that will help the Federal agencies 
further the goals described in the MOA. These findings are being 
reviewed and will be used to replicate successful programs, implement 
quality-improvement efforts, and disseminate information and provide 
technical assistance to Federal, State, and tribal governments; 
schools; or other entities carrying out Native language activities.
    The NLW is identifying research that explores educational 
attainment and Native language retention and/or revitalization and is 
reviewing current training and technical assistance related to Native 
language preservation and maintenance. The NLW is gathering data about 
effective or exemplary Native language instruction, both in terms of 
the administration of funds and programs, as well as program impact on 
educational achievement.
    Also, the Office of Postsecondary Education has included an 
Invitational Priority to support activities that strengthen Native 
language preservation and revitalization in institutions of higher 
education in the Title III Alaska Native and Native Hawaiian-Serving 
Institutions 2014 grant competition.
    Consistent with the President's ESEA reauthorization blueprint, a 
pilot competition was designed to increase the role of TEAs in meeting 
the educational needs of students attending public schools on tribal 
reservations. The State Tribal Education Program (STEP) is the result 
of this effort. Through ED's Investing in Innovation program, the 
Parents as Teachers National Center replicated a program called 
BabyFACE. The evidence-supported, home-based service of the successful 
Family and Child Education (FACE) program serves approximately 1,000 
children annually over the five-year grant in 22 BIE-funded schools. In 
year three, nearly 900 families were served by parent educators at the 
22 BIE sites through home visitations where children received books and 
annual health screenings.

    Question 5. You referenced the National Advisory Council on Indian 
Education in your written testimony as playing ``a vital role in how we 
address the unique needs of Al/AN students.'' Please describe which 
NACIE recommendations have been adopted or otherwise acted upon and 
which recommendations have been either been rejected or not acted upon 
during this Administration.
    Answer. Please see the response above to question 3 from Senator 
Heitkamp

    Question 6. You noted in your testimony that the President has 
requested funding for a number of new programs, including Race to the 
Top Equity and Opportunity, College Success Grants for Minority-Serving 
Institutions Initiative, and First in the World. You also spoke about 
Impact Aid, Title VII and Title II programs that serve American Indian 
and Alaska Native students. The Committee has been informed by 
witnesses at today's hearing of the importance of Impact Aid funding in 
schools' efforts to improve American Indian and Alaska Native students' 
outcomes. Yet, the President has proposed to flat fund Impact Aid Basic 
Support Payments, Payments for Students with Disabilities, Facilities 
Maintenance, and Construction in FY15. Which of the proposed new 
programs could be put aside in order to increase funds for Impact Aid 
and other Title programs that have been shown to be so important to 
serving Native students?
    Answer. The President's Budget Request reflects the 
Administration's best effort to balance existing commitments with 
support for innovation aimed at addressing gaps in current Federal 
education programs. We continue to believe that Congress should fund 
our proposed Race to the Top incentives that target the many inequities 
in educational opportunity identified by the Equity Commission and 
amplified in recent data from the Civil Rights Data Collection, the 
related expansion of support for minority-serving institutions, and 
First in the World efforts to improve postsecondary outcomes through 
increased emphasis on college affordability and completion. We also 
believe that each of these initiatives holds the potential to deliver 
benefits for American Indian and Alaska Native students.
    Attachments
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                  <all>

</pre></body></html>
